Audit Report




OIG-13-050
Report on the Bureau of the Fiscal Service Trust Funds
Management Branch’s Description of its Trust Funds
Management Processing Services and the Suitability of the
Design and Operating Effectiveness of its Controls for the Period
August 1, 2012 to July 31, 2013
September 23, 2013




Office of
Inspector General
Department of the Treasury
                                      DEPARTMENT OF THE TREASURY
                                            W ASHINGTON, D.C. 20220




     OFFICE OF
INSPECTOR GENERAL
                                             September 23, 2013


            MEMORANDUM FOR DAVID A. LEBRYK, COMMISSIONER
                           BUREAU OF THE FISCAL SERVICE

            FROM:                  Michael Fitzgerald
                                   Director, Financial Audits

            SUBJECT:               Report on the Bureau of the Fiscal Service Trust Funds
                                   Management Branch’s Description of its Trust Funds
                                   Management Processing Services and the Suitability of the
                                   Design and Operating Effectiveness of its Controls for the
                                   Period August 1, 2012 to July 31, 2013


            I am pleased to transmit the attached Report on the Bureau of the Fiscal Service
            (Fiscal Service) Trust Funds Management Branch’s Description of its Trust Funds
            Management Processing Services and the Suitability of the Design and Operating
            Effectiveness of its Controls for the period August 1, 2012 to July 31, 2013. Under
            a contract monitored by the Office of Inspector General, KPMG LLP, an independent
            certified public accounting firm, performed an examination of the description of
            controls, the suitability of the design, and the operating effectiveness of the general
            computer and trust funds management processing controls used for various Federal
            and State Government agencies’ (program entities) transactions for the period
            August 1, 2012 to July 31, 2013. The contract required that the examination be
            performed in accordance with generally accepted government auditing standards and
            the American Institute of Certified Public Accountants’ Statement on Standards for
            Attestation Engagements Number 16, Reporting on Controls at a Service
            Organization.

            In its examination, KPMG LLP found in all material respects:

                •   the Description of Controls Provided by Fiscal Service fairly presents the
                    general computer and trust funds management processing controls that were
                    designed and implemented throughout the period August 1, 2012 to July 31,
                    2013,
Page 2


   •   the controls related to the control objectives stated in the description were
       suitably designed to provide reasonable assurance that the control objectives
       would be achieved if the controls operated effectively throughout the period
       August 1, 2012 to July 31, 2013, and program entities applied the
       complementary program entity controls and sub-service organizations applied
       the controls contemplated in the design of Fiscal Service’s controls
       throughout the period August 1, 2012 to July 31, 2013, and
   •   the controls tested, which together with the complementary program entity
       controls and sub-service organizations’ controls, if operating effectively, were
       those necessary to provide reasonable assurance that the control objectives
       were achieved, operated effectively throughout the period August 1, 2012 to
       July 31, 2013.

In connection with the contract, we reviewed KPMG LLP’s report and related
documentation and inquired of its representatives. Our review, as differentiated
from an examination of the description of controls, the suitability of the design, and
the operating effectiveness of controls in accordance with generally accepted
government auditing standards, was not intended to enable us to express, and we
do not express, an opinion on Fiscal Service's description of controls, the suitability
of the design of these controls and the operating effectiveness of controls tested.
KPMG LLP is responsible for the attached independent service auditors’ report dated
September 20, 2013, and the conclusions expressed in the report. However, our
review disclosed no instances where KPMG LLP did not comply, in all material
respects, with generally accepted government auditing standards.

Should you have any questions, please contact me at (202) 927-5789, or a member
of your staff may contact Mark S. Levitt, Manager, Financial Audits at
(202) 927-5076.

Attachment
                 U.S. Department of the Treasury
                   Bureau of the Fiscal Service



                 Trust Funds Management Branch
                      General Computer and
                 Trust Funds Processing Controls




Report on Trust Funds Management Branch’s Description of Its Trust
  Funds Management Processing Services and the Suitability of the
         Design and Operating Effectiveness of Its Controls
           For the Period August 1, 2012 to July 31, 2013
                                U.S. DEPARTMENT OF THE TREASURY
                                  BUREAU OF THE FISCAL SERVICE
                                TRUST FUNDS MANAGEMENT BRANCH

  REPORT ON TRUST FUNDS MANAGEMENT BRANCH’S DESCRIPTION OF ITS
   TRUST FUNDS MANAGEMENT SERVICES AND THE SUITABILITY OF THE
       DESIGN AND OPERATING EFFECTIVENESS OF ITS CONTROLs


                                                      Table of Contents

Section                                                   Description                                                                            Page

   I. Independent Service Auditors’ Report Provided by KPMG LLP .......................................... 1

 II.   Management’s Assertion ............................................................................................................. 5

 III. Description of Controls Provided by the Bureau of the Fiscal Service .................................. 11

       Overview of Operations ................................................................................................................ 12

       Relevant Aspects of the Control Environment, Risk Assessment, and Monitoring...................... 16

               Control Environment ........................................................................................................... 16
               Risk Assessment.................................................................................................................. 16
               Monitoring........................................................................................................................... 17

       Information and Communication .................................................................................................. 18

       Control Objectives and Related Controls
           The Bureau of the Fiscal Service (Fiscal Service) control objectives and related
           controls are included in Section IV of this report, “Control Objectives, Related
           Controls, and Tests of Operating Effectiveness.” Although the control
           objectives and related controls are included in Section IV, they are,
           nevertheless, an integral part of Fiscal Service’s description of controls.

       Complementary Program Entity Controls..................................................................................... 20

       Sub-service Organizations ............................................................................................................ 22

 IV. Control Objectives, Related Controls, and Tests of Operating Effectiveness ....................... 25

       General Computer Controls .......................................................................................................... 26

               System Software.................................................................................................................. 26
               Vendor Software ................................................................................................................. 29
               Program Change Control..................................................................................................... 31
               Physical Access ................................................................................................................... 33
             Logical Access .................................................................................................................... 36
             Computer Operations .......................................................................................................... 39
             Network Performance Monitoring ...................................................................................... 41

     Trust Funds Management Processing Controls............................................................................. 42

             Procedures .......................................................................................................................... 42
             Receipts Processing ............................................................................................................. 43
             Investment Purchase Requests ............................................................................................ 48
             Investment Income .............................................................................................................. 50
             Investment Redemption Requests ....................................................................................... 52
             Disbursement Processing .................................................................................................... 54
             Records Maintenance .......................................................................................................... 57
             Reporting ............................................................................................................................. 59
             Unemployment Trust Funds Title XII of the Social Security Act Advances Program ....... 63

V.   Other Information Provided by the Bureau of the Fiscal Service .......................................... 65

     Contingency Planning ................................................................................................................... 66
I.   INDEPENDENT SERVICE AUDITORS’ REPORT
             PROVIDED BY KPMG LLP




                    1
                               KPMG LLP
                               Suite 12000
                               1801
                             Inde    K Street, NW
                                   pendent     Service          Auditors’ Report
                               Washington, DC 20006




Inspector General, U.S. Department of the Treasury
Commissioner, Bureau of the Fiscal Service and the
Assistant Commissioner, Office of Public Debt Accounting


Scope
We have examined the Bureau of the Fiscal Service’s (Fiscal Service) Trust Fund Management
Branch’s description of its general computer and trust funds management processing controls
used for processing Program Entities transactions throughout the period August 1, 2012 to July
31, 2013 (description) and the suitability of the design and operating effectiveness of controls to
achieve the related control objectives stated in the description. The description indicates that
certain control objectives specified in the description can be achieved only if complementary
Program Entity controls and controls at the sub-service organizations, contemplated in the design
of Fiscal Service’s controls are suitably designed and operating effectively, along with related
controls at the service organization. We have not evaluated the suitability of the design or the
operating effectiveness of such complementary Program Entity controls or the controls at the
subservice organizations.
Fiscal Service uses external service organizations (sub-service organizations). The description in
Sections III and IV includes only the control objectives and related controls of Fiscal Service and
excludes the control objectives and related controls of the sub-service organizations. Our
examination did not extend to controls of sub-service organizations.


Service organization’s responsibilities
In Section II, Fiscal Service has provided an assertion about the fairness of the presentation of the
description, the suitability of the design and the operating effectiveness of the controls to achieve
the related control objectives stated in the description. Fiscal Service is responsible for preparing
the description and for the assertion, including the completeness, accuracy, and method of
presentation of the description and the assertion, providing the services covered by the
description, specifying the control objectives and stating them in the description, identifying the
risks that threaten the achievement of the control objectives, selecting and using suitable criteria,
and designing, implementing, and documenting controls to achieve the related control objectives
stated in the description.
The information in Section V of management’s description of the service organization’s system,
“Other Information Provided by the Bureau of the Fiscal Service,” that describes contingency
planning is presented by management of Fiscal Service to provide additional information and is
not a part of Fiscal Service’s description of its system made available to Program Entities during
the period August 1, 2012 to July 31, 2013. Information in Section V has not been subjected to
the procedures applied in the examination of the description of the system and of the suitability of
the design and operating effectiveness of controls to achieve the related control objectives stated
in the description of the system, and, accordingly, we express no opinion on it.




                                                            2
                               KPMG LLP is a Delaware limited liability partnership,
                               the U.S. member firm of KPMG International Cooperative
                               (“KPMG International”), a Swiss entity.
Service auditors’ responsibilities
Our responsibility is to express an opinion on the fairness of the presentation of the description,
the suitability of the design and the operating effectiveness of the controls to achieve the related
control objectives stated in the description, based on our examination. We conducted our
examination in accordance with attestation standards established by the American Institute of
Certified Public Accountants and applicable Government Auditing Standards issued by the
Comptroller General of the United States. Those standards require that we plan and perform our
examination to obtain reasonable assurance about whether, in all material respects, the description
is fairly presented, the controls were suitably designed and the controls were operating effectively
to achieve the related control objectives stated in the description throughout the period August 1,
2012 to July 31, 2013.
An examination of a description of a service organization's system and the suitability of the
design and operating effectiveness of the service organization's controls to achieve the related
control objectives stated in the description involves performing procedures to obtain evidence
about the fairness of the presentation of the description and the suitability of the design and the
operating effectiveness of those controls to achieve the related control objectives stated in the
description. Our procedures included assessing the risks that the description is not fairly presented
and that the controls were not suitably designed or operating effectively to achieve the related
control objectives stated in the description. Our procedures also included testing the operating
effectiveness of those controls that we consider necessary to provide reasonable assurance that
the related control objectives stated in the description were achieved. An examination
engagement of this type also includes evaluating the overall presentation of the description and
the suitability of the control objectives stated therein, and the suitability of the criteria specified
by the service organization and described in management’s assertion in Section II of this report.
We believe that the evidence we obtained is sufficient and appropriate to provide a reasonable
basis for our opinion.


Inherent limitations
Because of their nature, controls at a service organization may not prevent, or detect and correct,
all errors or omissions in processing or reporting transactions. Also, the projection to the future of
any evaluation of the fairness of the presentation of the description, or conclusions about the
suitability of the design or operating effectiveness of the controls to achieve the related control
objectives is subject to the risk that controls at a service organization may become inadequate or
fail.




                                                  3
Opinion
In our opinion, in all material respects, based on the criteria described in Fiscal Service’s
assertion (1) the description fairly presents the general computer and trust funds management
processing controls that were designed and implemented throughout the period August 1, 2012 to
July 31, 2013, (2) the controls related to the control objectives stated in the description were
suitably designed to provide reasonable assurance that the control objectives would be achieved if
the controls operated effectively throughout the period August 1, 2012 to July 31, 2013, and
Program Entities applied the complementary Program Entity controls and sub-service
organizations applied the controls contemplated in the design of Fiscal Service’s controls
throughout the period August 1, 2012 to July 31, 2013, and (3) the controls tested, which together
with the complementary Program Entity controls and sub-service organizations’ controls referred
to in the scope paragraph of this report, if operating effectively, were those necessary to provide
reasonable assurance that the control objectives stated in the description in Section IV were
achieved, operated effectively throughout the period August 1, 2012 to July 31, 2013


Description of tests of controls
The specific controls and the nature, timing, extent, and results of the tests are listed in Section
IV.


Restricted use
This report, including the description of tests of controls and results thereof in Section IV, is
intended solely for the information and use of the management of Fiscal Service, Program
Entities of Fiscal Service’s general computer and trust funds management processing controls
during some or all of the period August 1, 2012 to July 31, 2013, the U.S. Department of the
Treasury Office of Inspector General, the Office of Management and Budget, the Government
Accountability Office, the U.S. Congress, and the independent auditors of Fiscal Service’s
Program Entities, who have a sufficient understanding to consider it, along with other information
including information about controls implemented by Program Entities themselves, when
assessing the risks of material misstatements of Program Entities’ financial statements. This
report is not intended to be and should not be used by anyone other than these specified parties.




September 20, 2013

                                        McLean, Virginia




                                                 4
II.   MANAGEMENT’S ASSERTION




             5
                           DEPARTMENT OF THE TREASURY
                           BUREAU OF THE FISCAL SERVICE
                              PARKERSBURG, WV 26106



                                       September 20, 2013


KPMG LLP
1676 International Drive
McLean, VA 22102


Ladies and Gentlemen:

We have prepared the description of the Bureau of the Fiscal Service (Fiscal Service) Trust Fund
Management Branch (TFMB) general computer and trust fund processing controls that use
InvestOne accounting system which is a vendor supplied subsystem of the Government Agency
Investment Services System (GAISS) for Program Entities of the system during some or all of the
period of August 1, 2012 through July 31, 2013, and their user auditors who have a sufficient
understanding to consider the description, along with other information, including information
about controls operated by user entities of the system themselves, when assessing the risks of
material misstatements of user entities’ financial statements. We confirm, to the best of our
knowledge, and belief, that

 a. TFMB uses a number of different sub-service organizations for certain transaction processing:

      Sub-Service Organization                        Description of Services
     Internal Revenue Service (IRS)                  At the end of each calendar quarter the IRS
                                                     certifies the excise taxes actually collected and
                                                     sends the certification to Fiscal Service. The IRS
                                                     generally certifies excise taxes two quarters after
                                                     the taxes are estimated (i.e., 1st quarter estimate is
                                                     certified in the 3rd quarter).

                                                     The IRS determines the amount of excise tax
                                                     refunds/credits and sends the adjustment to
                                                     TFMB to be processed.
     U.S. Department of Treasury – Office of         Treasury’s OTA estimates the monthly excise
     Tax Analysis (OTA)                              taxes based on projected excise tax receipts and
                                                     sends the estimate to Fiscal Service.

                                                     Treasury’s OTA estimates the monthly taxes,
                                                     determines the amounts to be transferred to the
                                                     appropriate trust funds, and sends the estimate to
                                                     Fiscal Service.
     U.S. Department of Treasury Bureau of the       GWA issues a warrant (SF-1017) to increase the
     Fiscal Service - Government wide                respective trust fund’s account, with each warrant
     Accounting (GWA)                                containing exactly half of the OTA estimated
                                                     monthly excise taxes. GWA sends the warrant
                                                     and excise tax estimate to TFMB.

                                                 6
                                                GWA calculates the excise tax adjustment as the
                                                difference between the excise taxes estimated by
                                                OTA and excise taxes certified by the IRS.
                                                GWA issues TFMB a warrant for the excise tax
                                                adjustment to increase or decrease the respective
                                                trust fund’s account.

                                                GWA sends TFMB the daily Federal Insurance
                                                Contribution Act (FICA) and Self-Employment
                                                Contribution Act (SECA) tax deposit
                                                information. TFMB allocates the deposits to the
                                                appropriate trust funds based on the monthly
                                                OTA estimates and provides the investment
                                                amounts to GWA. GWA confirms the investment
                                                totals back to TFMB and prepares the tax
                                                warrant.

                                                Transfers from program agencies are the result of
                                                IPAC or SF 1151 Non-Expenditure Transfers that
                                                TFMB receives from Program Entities.
U.S. Department of Treasury Bureau of the       The Program Entities generate a file in the
Fiscal Service - Government On-line             IPAC System to allocate the funds to the
Accounting System (GOALS)                       proper trust funds. TFMB receives the IPAC
                                                transaction report from the GWA GOALS
                                                system.
U.S. Department of Treasury Bureau of the
                                                TFMB receives the daily receipt reports from
Fiscal Service - Intragovernmental
                                                the Program Entities and the IPAC transaction
Payment and Collection (IPAC) System
                                                report from the GWA GOALS system.
                                                Federal agencies make payments to the
                                                Department of Labor using the IPAC System.
                                                The Department of Labor receives IPAC
                                                transactions, maintains the Federal Employees
                                                Compensation Act accounts receivable, and
                                                deposits collections in the UTF via SF-224.
                                                For each redemption transaction, the trust fund
                                                manager obtains the related IPAC report from
                                                the IPAC system.
U.S. Department of Treasury Bureau of the       The Budget Reports Division of Fiscal Service
Fiscal Service - Collections Information        within GWA prepares warrants based on
Repository (CIR)                                collections reported to Fiscal Service through
                                                CIR. The warrants are forwarded to TFMB.
U.S. Department of Treasury Bureau of the
                                                TFMB uses the automated CARS system,
Fiscal Service - Central Accounting and
                                                maintained by Fiscal Service, to process
Reporting System (CARS)
                                                transfers.
                                                GWA configured the CARS system to
                                                authorize TFMB to transfer funds from the
                                                trust fund accounts to Program Entities’

                                            7
                                                accounts but not to transfer funds from
                                                Program Entities’ accounts to the trust fund
                                                accounts.
                                                GWA authorizes the CARS system to send the
                                                disbursement request to the STAR system
                                                using an automated interface. The CARS
                                                system changes the status of the transfer
                                                request to “STAR POSTED” on the CARS
                                                system.
U.S. Department of Treasury Bureau of the       TFMB reports trust fund budget execution data
Fiscal Service - FACTS II                       in FACTS II.
U.S. Department of Treasury Bureau of the
                                                For disbursement processing, the STAR
Fiscal Service - Central Accounting
                                                system transfers the funds from the trust fund
System (STAR)
                                                account to the Program Entity account.
                                                TFMB submits, via GOALS, a SF-224
                                                Statement of Transaction report (SF-224),
                                                which posts to STAR, and the appropriate
                                                Trust Fund accounts are adjusted for the
                                                refunds/credits.
U.S. Department of Treasury Bureau of the
                                                Program Entities must submit all disbursement
Fiscal Service - Automated Standard
                                                requests using the ASAP system. Each day,
Application for Payments (ASAP)
System                                          Program Entities must enter their disbursement
                                                requests into the ASAP system by 6:00 pm
                                                EST if requesting a wire transfer and by 11:59
                                                pm EST if requesting an Automated Clearing
                                                House payment.
                                                During the morning of the next business day,
                                                the ASAP system transmits a file to the
                                                InvestOne accounting system that contains all
                                                of the disbursement and transfer requests.
Federal Reserve Bank of New York                The Federal Reserve Bank of New York
                                                accesses CIR, a Treasury on-line system in
                                                which deposit and withdrawal information is
                                                maintained at the detail and summary level,
                                                and uploads the deposit information into the
                                                Unemployment Trust Fund activity location
                                                code.
U.S. Department of Treasury Bureau of the       Oracle is used to report trust fund transactions
Fiscal Service - Office of Administrative       processed through the InvestOne accounting
Services                                        system (for all trust funds except the
                                                Unemployment Trust Fund).
U.S. Department of Treasury Bureau of the       FIB processes and confirms
Fiscal Service - Federal Investments            investment/redemption transactions and
Branch (FIB)                                    balances.


The description in Section III and IV includes only the controls and related control objectives
of Fiscal Service and excludes the control objectives and related controls of the services listed

                                            8
        above from the respective service organizations. The criteria we used in making this assertion
        were that the accompanying description:

   i.         Presents how the system made available to user entities of the system was designed and
              implemented to process relevant transactions, including:

              1. The types of services provided, including, as appropriate, the classes of transactions
                 processed;
              2. The procedures, within both automated and manual systems, by which those
                 transactions were initiated, authorized, recorded, processed, corrected as necessary,
                 and transferred to the reports prepared for user entities;
              3. The related accounting records, supporting information, and specific accounts that
                 were used to initiate, authorize, record, process, and report transactions; this
                 includes the correction of incorrect information and how information was
                 transferred to the reports prepared for user entities;
              4. How the systems captured and addressed significant events and conditions, other
                 than transactions;
              5. The process used to prepare reports or other information for user entities;
              6. Specified control objectives and controls designed to achieve those objectives;
              7. Controls that we assumed, in the design of the system, would be implemented by
                 user entities, and which, if necessary to achieve control objectives stated in the
                 accompanying description, are identified in the description along with the specific
                 control objectives that cannot be achieved solely by controls implemented by us;
                 and
              8. Other aspects of our control environment, risk assessment process, information and
                 communication systems (including the related business processes), control activities,
                 and monitoring controls that are relevant to processing and reporting transactions of
                 user entities transactions

        ii.    Does not omit or distort information relevant to the scope of general computer and trust
               fund processing controls, while acknowledging that the description is prepared to meet
               the common needs of a broad range of trust fund customers and independent auditors of
               those entities and may not; therefore, include every aspect that each user entity and its
               auditor may consider important in its own environment.

b. The description includes relevant details of changes to the general computer and trust fund
   processing controls during the period covered by the descriptions.

c. The controls related to the control objectives stated in the description were suitably designed
   and subservice organizations applied the controls contemplated in the design of Fiscal
   Service’s controls and operated throughout the period of August 1, 2012 through July 31, 2013
   to achieve those control objectives. The criteria we used in making this assertion were that:

   i.         The risks that threatened achievement of control objectives stated in the description were
              identified;

  ii.         The identified controls would, if operating as described, provide reasonable assurance that
              those risks did not prevent the stated control objectives from being achieved; and



                                                   9
iii.   The controls were consistently applied as designed, including whether manual controls
       were applied by individuals who have the appropriate competence and authority.

                                          Very truly yours,




                                          Susan L. Chapman, Director
                                          Division of Federal Investments




                                         10
III.   DESCRIPTION OF CONTROLS PROVIDED BY THE BUREAU OF
                       THE FISCAL SERVICE




                          11
OVERVIEW OF OPERATIONS

The Trust Fund Management Branch (TFMB) is now a component of the Bureau of the Fiscal
Service, which was created on October 7, 2012 as a result of the consolidation of two Treasury
bureaus, the Financial Management Service (FMS) and the Bureau of the Public Debt (BPD).
Treasury Directive 27-02, Organization and Functions of the Fiscal Service, dated May 23, 1997,
established the Bureau of the Public Debt responsibility to invest, approve schedules for
withdrawals, and maintain accounts for the Federal Trust and Deposit Programs as directed by
statute, and certify interest rates determined by the Secretary of the U.S. Department of Treasury.

Fiscal Service has assigned these responsibilities to the Division of Federal Investments (DFI),
with the exception of interest certification, which is assigned to the Debt Accounting Branch.
DFI manages two functional areas: Trust Funds Management Branch (TFMB) and Federal
Investments Branch (FIB). TFMB is the service organization responsible for processing certain
receipt, investment, investment servicing, disbursement, and redemption transactions for nineteen
trust funds. In addition, TFMB reports the results of the transactions processed to the Fiscal
Service and the Program Agencies and States (Program Entities) whose programs are funded by
the trust funds. TFMB employs twelve personnel and reports on nearly $3.1 trillion of trust fund
assets. TFMB more specifically:

    •   Analyzes provisions and limitations of public laws relating to authorized trust
        fund transactions
    •   Processes receipt, investment, investment income, and disbursement activity
    •   Establishes and controls the record keeping of the trust fund activity processed by
        TFMB
    •   Provides monthly reports to Program Entities reflecting trust fund activities and
        balances

Transaction support is maintained in electronic format. The supporting documentation is
maintained in work folders that include at least the following key documents:

        •    Transaction supporting documentation:
              - Receipt notification documents, such as Office of Tax Analysis (OTA)
                tax estimate/adjustment letters, Internal Revenue Service (IRS) tax
                refund/credit letters, Program Entity receipt letters/reports, Deposit
                Summary Form (SF-215), and CIR (Collections Information Repository)
                reports.
              - Intra-Governmental Payment And Collection (IPAC) transaction reports
              - Classification Transaction and Accountability (CTA)/SF-224 worksheet
                generated from the InvestOne accounting system
              - FMS-issued warrants (SF-1017)
              - Investment and Redemption Requests
              - Investment and Redemption Confirmations
              - Disbursement request letters from Program Entities
              - Non-Expenditure Transfer Authorization (SF-1151)
              - Automated Standard Application for Payments (ASAP) System
                Transaction by Account ID reports (- Automated                Standard
                Application for Payments (ASAP) disbursement and transfer request files
                and reports - InvestOne accounting system pending transactions report
                (UTF Only)

                                              12                Description of Controls Provided
                                                               by the Bureau of the Fiscal Service
        •   Cash Forecasting Report
        •   Daily Transaction Support Package (DTSP)
        •   Monthly financial review checklist
        •   Classification Transaction Accountability and Reporting System
            (CTA)/Central Accounting and Reporting System (CARS) Account
            Statement
        • FIB-generated Monthly Statement of Account
        • Monthly Financial Reconciliation
    -InvestOne accounting system to Oracle trial balance report reconciliations
     -General ledger account reconciliations
    -Budgetary to Proprietary Account Reconciliations
    -Financial Statements Package
        • Financial Statement Package:
             - Trial Balance reports
             - Balance Sheet
             - Income Statements
             - FACTS II Trial Balance
             - FACTS II Adjusted Trial Balance Report
             - Schedules of Assets and Liabilities, Schedules of Activity, Schedules of
                Misstatements (Attest Schedules) – Attest Funds only
        • GAS Account Statements
        • Federal Unemployment Account (FUA) Pending Report (UTF only)
        • ASAP transaction report
        • UTF InvestOne accounting system Borrowing Reports (UTF only)
        • FMS-2108 Year-End Closing Statement


TFMB processes receipt transactions based on warrants provided by other Fiscal Service
organizations or amounts received from Program Entities and other organizations using the IPAC
or CIR systems. The OTA and IRS are responsible for determining the amount of tax receipts.
The Program Entities and other organizations are responsible for determining the amount of the
non-tax receipts.

TFMB invests the receipts in U.S. Department of the Treasury (Treasury) securities. TFMB
summarizes the daily receipts, prepares an Investment Request, and enters the request into
FedInvest, which purchases the requested security and posts an Investment Confirmation on the
FedInvest website. TFMB primarily purchases non-marketable Treasury securities that are held
in the name of the Secretary of the Treasury for the trust funds, such as:

   Non-marketable, market-based securities
   • Bills
   • Bonds
   • Notes
   • One-day securities


   Non-marketable, par value securities
   • Special issue bonds
   • Certificates of indebtedness


                                             13              Description of Controls Provided
                                                            by the Bureau of the Fiscal Service
The interest on securities held for the trust funds is credited to the trust funds in accordance with
legislation. FIB assigns interest rates for the securities issued to the trust funds. The interest rate
for a non-marketable par value security is based on specific legislation or the average monthly
rate of all outstanding Treasury debt instruments. The interest rate for a non-marketable market-
based security is based on the daily rate established by the Office of Debt Management within the
Treasury for an equivalent marketable security.

FIB issues non-marketable market based bills, bonds, and notes at a discount or premium. TFMB
amortizes the discounts for bills (i.e., short-term securities) using the straight-line method and the
discounts and premiums for bonds and notes (i.e., long-term securities) using the level yield
method, which approximates the effective interest method.

Interest income is a receipt to the trust fund and is either used to meet Program Entity
disbursement requests or is reinvested according to the trust funds’ investment policy. The trust
fund managers record interest income as either received or accrued each month. Also if a gain or
loss is sustained when a security is redeemed prior to maturity to meet the cash needs of a
Program Entity, the related gain or loss is also recorded.

The Program Entities that are authorized to use trust fund assets as program resources request
disbursements from TFMB. TFMB prepares an Investment/Redemption Request form and enters
the request into FedInvest, which redeems the requested amount of securities and posts a
Redemption Confirmation on the FedInvest website. TFMB enters a non-expenditure transfer
authorization into Fiscal Service's CTA/CARS System to transfer the requested funds to the
Program Entities. The Program Entities have responsibility for the ultimate disposition of the
trust fund assets.

The receipt, investment, investment income, and disbursement activity provide the basis for
reporting financial information to the Program Entities that use the trust fund resources, as well as
other interested parties such as the Office of Management and Budget (OMB) and Treasury
offices. TFMB provides monthly financial reports including the activity and balances to the
Program Entities.

The in-scope Fiscal Service functions are shaded in the following organizational chart.




                                                14                 Description of Controls Provided
                                                                  by the Bureau of the Fiscal Service
                     ORGANIZATIONAL CHART




                           Bureau of the Fiscal Service


   (OAS)                              (ISS)                                  (OPDA)
  Office of                  Information and Security                     Office of Public
Administrative                      Services                              Debt Accounting
  Services                 IT support for Application Security,
                           Application Processing, and Network
                                         Support




                 (DSPS)                                                   (DFI)
         Division of Systems and                                   Division of Federal
            Program Support                                           Investments



      (PSB)               (SSB)                      (TFMB)                      (FIB)
    Program              Systems                    Trust Funds                 Federal
    Support           Support Branch                Management                Investments
     Branch                                           Branch                    Branch
                                                    Federal Trust Fund             Process
                                                      Management            Investment/Redemption
                                                                               Requests for Fund
                                                                            Agencies on InvestOne
                                                                              Accounting System




                                   15                   Description of Controls Provided
                                                       by the Bureau of the Fiscal Service
RELEVANT ASPECTS OF THE CONTROL ENVIRONMENT, RISK
ASSESSMENT, AND MONITORING

Control Environment

Operations are primarily under the direction of the Office of the Director of the Division of
Federal Investment (DFI) and the Director of the Division of Systems and Programs Support
(DSPS), which represent the functional areas listed below:

    •   Administrative development. Coordinates various aspects of the operations.
        Identifies areas requiring internal controls and implements those controls.
        Performs systems planning, development, and implementation. Reviews network
        operations and telecommunications and performs disaster-recovery planning and
        database administration.

    •   Program support. Supports Program Entities in all aspects of their use of the
        application system including research and resolution of identified problems.

    •   Operations. Manages daily computer operations, production processing, report
        production and distribution, and system utilization and capacity.

DFI and DSPS hold bi-weekly management meetings to discuss special processing requests,
operational performance, and the development and maintenance of projects in process. Written
position descriptions for employees are maintained. The descriptions are inspected annually and
revised as necessary.

References are sought and background, credit, and security checks are conducted for all Fiscal
Service personnel when they are hired. Additional background, credit, and security checks are
performed every three to five years. The confidentiality of Program Entity information is stressed
during the new employee orientation program and is emphasized in the personnel manual issued
to each employee. Fiscal Service provides a mandatory orientation program to all full time
employees and encourages employees to attend other formal outside training.

All Fiscal Service employees receive an annual written performance evaluation and salary
review. These reviews are based on goals and objectives that are established and reviewed during
meetings between the employee and the employee’s supervisor. Completed appraisals are
reviewed by senior management and become a permanent part of the employee’s personnel file.

Risk Assessment

Fiscal Service has placed into operation a risk assessment process to identify and manage risks
that could affect TFMB’s ability to provide reliable transaction processing for Program Entities.
This process requires management to identify significant risks in their areas of responsibility and
to implement appropriate measures and controls to manage these risks.

Additionally, all mission-critical systems and general support systems are subject to an internal
risk-based review every three years. This review identifies assets and possible threats to these
assets, provides a measure of vulnerability of the system to these threats, and confirms control or
protective measures are in place.



                                              16                Description of Controls Provided
                                                               by the Bureau of the Fiscal Service
Monitoring

Fiscal Service management and supervisory personnel monitor the quality of internal control
performance as a normal part of their activities. Management and supervisory personnel inquire
and ensure the trust fund managers process transactions and perform internal controls. In
addition, management reviews financial reports that summarize the trust fund transaction
processing. One key control is that each month the trust fund managers reconcile the trial balance
reports from the InvestOne accounting system to the CARS Account Statement. In addition,
TFMB prepares and reconciles the Federal Agencies Centralized Trial-Balanced System (FACTS
II) submission reports to the trial balance reports, each month, October through September.




                                              17               Description of Controls Provided
                                                              by the Bureau of the Fiscal Service
INFORMATION AND COMMUNICATION

Information Systems

InvestOne Accounting System Description

The InvestOne accounting system is a vendor-supplied subsystem of the Government Agency
Investment Services System (GAISS). The InvestOne accounting system is used to record and
report trust fund activity processed by TFMB. The InvestOne accounting system is licensed by
SunGard Investment Systems, Inc. The InvestOne accounting system resides on Fiscal Service’s
Fiscal IT (FIT-MF) Mainframe. The Information and Security Services (ISS) provides the
primary support for maintaining the InvestOne accounting system. This includes FIT-MF
operations (batch processing and reporting), custom report writing, application change
management, data management, tape backup and recovery, user access security, remote access
and continuity management. The InvestOne accounting system is accessed through the network
using a terminal emulator that enables communication with ISS FIT-MF applications. The
InvestOne accounting system also provides a report writer package called Spectra that provides
users with the ability to create their own reports. Fiscal Service uses Spectra to create reports,
which provide functionality not included in the standard InvestOne accounting system reports.

The trust fund managers receive supporting documentation on a daily basis for recording trust
fund activity. The trust fund managers record the activity as the supporting documentation is
received into the InvestOne accounting system. This process provides the trust fund managers
with information on daily cash balances that helps them ensure that the activity was processed
and invested correctly. The InvestOne accounting system provides monthly trial balance reports
and financial reports.

FedInvest Description

FedInvest, also a subsystem of GAISS, is a vendor-developed, web-based extension to the
InvestOne accounting system that provides access to the federal investments information through
the Internet. FedInvest allows federal investment fund managers to assume direct responsibility
for managing their respective accounts. Using FedInvest, federal agencies are able to input
transactions into InvestOne accounting system, as well as view account statements and
transaction information over the Internet. Additionally, FedInvest provides an interface to the
InvestOne accounting system for internal fund managers in DFI. FedInvest includes edits that
serve to enforce federal investment program policies resulting in improved data quality in the
InvestOne accounting system.

FedInvest also includes two extensions that are available only to Fiscal Service internal users.
The Customer Role Management (CRM) module is used by DSPS Information System Security
Representatives (ISSRs) to manage FedInvest users and their access to associated investment
account information. CRM is used by FIB accountants to manage security type and account
information. CRM is also used to create and post broadcast messages (announcements) that are
seen by users signed onto the system, and establish email communication to all system users and
their agency Chief Financial Officers. The Rate Price Administration (RPA) module is used by
FIB accountants to load rates/prices, publish rates/prices on the TreasuryDirect website, apply
prices to pending market-based transactions, post pending par value redemption transactions, and
update FedInvest with the Consumer Price Index (CPI) for processing TIPS transactions.



                                              18               Description of Controls Provided
                                                              by the Bureau of the Fiscal Service
Oracle Federal Financials (Oracle) Description

Office of Administrative Services (OAS) has outsourced the hosting of Oracle Federal Financials
to Oracle Corporation’s Oracle on Demand service. As the hosting company for ARC, Oracle on
Demand staff serve as the database and system administrator and provides backup and recovery
services. The Oracle system physically resides in a caged federal environment within Oracle on
Demand’s Austin Data Center and is only accessible via a Virtual Private Network (VPN)
between Fiscal Service and Oracle on Demand.

Oracle on Demand operates Oracle version 11 and R12, Oracle 11g database in a Linux operating
system environment. Oracle uses a two-tier web-based infrastructure with a front-end Internet
user interface and a database residing on the secure network. Oracle accesses the database IP to
IP on a specified port that was defined in the Access Control List. Internet access is via a 128-bit
Secure Sockets Layer (SSL) encrypted connection. Oracle is compliant with Section 508 of the
Rehabilitation Act Amendment for 1998 for Americans with Disabilities (ADA).

TFMB uses Oracle to report trust fund transactions processed through the InvestOne accounting
system (for all trust funds except the Unemployment Trust Fund). TFMB also uses a report
writer package called Discoverer that provides users with the ability to create their own ad hoc
reports for query purposes.

Communication

Fiscal Service has implemented various methods of communication to ensure that all employees
understand their individual roles and responsibilities over transaction processing and controls.
These methods include orientation and training programs for newly hired employees, and use of
electronic mail messages to communicate time sensitive messages and information. Managers
also hold periodic staff meetings as appropriate. Every employee has a written position
description that includes the responsibility to communicate significant issues and exceptions to an
appropriate higher level within the organization in a timely manner.




                                               19                Description of Controls Provided
                                                                by the Bureau of the Fiscal Service
COMPLEMENTARY PROGRAM ENTITY CONTROLS

TFMB’s processing of transactions and the controls over the processing were designed with the
assumption that certain controls would be placed in operation by Program Entities. The
application of specific controls at customer organizations is necessary to achieve all control
objectives included in this report.

This section describes some of the controls that should be in operation at Program Entities to
complement the controls at TFMB. Program Entity auditors should determine whether Program
Entities have established controls to provide reasonable assurance that:

•   Ensure that access to the FedInvest system is restricted to properly authorized individuals.

•   Verify that only authorized receipts are deposited into the trust funds.

•   Determine and approve receipt amounts.

•   Provide receipt information to TFMB within the required time frames.

•   Review the monthly financial reports provided by TFMB to ensure that receipts are posted
    accurately.

•   Verify that the type and term of the investments purchased are appropriate in relation to
    expected cash flow needs.

•   Verify that the type and term of the investments purchased and related investment income are
    appropriate in relation to expected cash flow needs.

•   Verify that only authorized disbursement requests are used for withdrawals from the trust
    funds.

•   Determine and approve the disbursement requests.

•   Provide disbursement requests to TFMB within the required time frame.

•   Ensure that the systems they use to support on-line access to ASAP are approved, tested, and
    properly monitored. (UTF only)

•   Restrict access to the ASAP to authorized individuals. (UTF only)

•   Verify that disbursement requests are accurately entered into the ASAP system. (UTF Only)

•   Review the monthly trust fund financial reports provided by TFMB to ensure that
    disbursements are posted accurately.

•   Reconcile fund balance with Treasury from their records to Fiscal Service records to ensure
    that they receive the proper trust fund disbursements.

•   Reconcile disbursement records to their bank’s records to ensure that they receive the proper
    trust fund disbursements. (UTF only)

                                               20                 Description of Controls Provided
                                                                 by the Bureau of the Fiscal Service
•   Review the monthly trust fund financial reports to ensure that transactions are recorded
    accurately.

•   Review their UTF account statements, transaction statements, and Federal activity reports to
    ensure that transactions are recorded accurately.

•   Verify that transactions are recorded accurately into Federal Agencies’ Centralized Trial
    Balance System (FACTS II).

•   Verify that borrowing requests are accurately entered into the ASAP system (UTF only).

•   Verify that borrowing amounts are not in excess of the amount approved by the U.S.
    Department of Labor.

•   Review the reports provided by TFMB to ensure that borrowing, interest, and repayment
    transactions are recorded accurately.

Specific complementary Program Entity controls are provided for Control Objectives 5, 9, 10, 11,
13, 15, and 16 in the Control Objectives, Related Controls, and Tests of Operating Effectiveness
section of this report.




                                             21               Description of Controls Provided
                                                             by the Bureau of the Fiscal Service
SUB-SERVICE ORGANIZATIONS

In order to provide trust funds management processing services, TFMB relies on systems and
services provided by other organizations external to Fiscal Service (sub-service organizations).
The following table describes the types of the sub-service organizations used by TFMB. These
sub-service organizations were not subject to examination by KPMG LLP.

  Name of Sub-       Name of system                     Function/Responsibilities
    service
  Organization

 Internal Revenue    N/A                 At the end of each calendar quarter the IRS certifies
 Service (IRS)                           the excise taxes actually collected and sends the
                                         certification to Fiscal Service. The IRS generally
                                         certifies excise taxes two quarters after the taxes are
                                         estimated (i.e., 1st quarter estimate is certified in the 3rd
                                         quarter).
                                         The IRS determines the amount of excise tax
                                         refunds/credits and sends the adjustment to TFMB to
                                         be processed.

 Treasury - Office   N/A                 Treasury’s OTA estimates the monthly excise taxes
 of Tax Analysis                         based on projected excise tax receipts and sends the
 (OTA)                                   estimate to Fiscal Service.
                                         Treasury’s OTA estimates the monthly taxes,
                                         determines the amounts to be transferred to the
                                         appropriate trust funds, and sends the estimate to Fiscal
                                         Service.

 Fiscal Service  N/A                     GWA issues a warrant (SF-1017) to increase the
 Government wide                         respective trust fund’s account, with each warrant
 Accounting                              containing exactly half of the OTA estimated monthly
                                         excise taxes. GWA sends the warrant and excise tax
                                         estimate to TFMB.
                                         GWA calculates the excise tax adjustment as the
                                         difference between the excise taxes estimated by OTA
                                         and excise taxes certified by the IRS. GWA issues
                                         TFMB a warrant for the excise tax adjustment to
                                         increase or decrease the respective trust fund’s
                                         account.
                                         GWA sends TFMB the daily Federal Insurance
                                         Contribution Act (FICA) and Self-Employment
                                         Contribution Act (SECA) tax deposit information.
                                         TFMB allocates the deposits to the appropriate trust
                                         funds based on the monthly OTA estimates and
                                         provides the investment amounts to GWA. GWA
                                         confirms the investment totals back to TFMB and


                                             22                 Description of Controls Provided
                                                               by the Bureau of the Fiscal Service
Name of Sub-   Name of system                    Function/Responsibilities
  service
Organization

                                   prepares the tax warrant.
                                   Transfers from program agencies are the result of
                                   IPAC or SF 1151 Non-Expenditure Transfers that
                                   TFMB receives from Program Entities.

               Government On-      The Program Entities generate a file in the IPAC
               line Accounting     System to allocate the funds to the proper trust funds.
               System (GOALS)      TFMB receives the IPAC transaction report from the
                                   GWA GOALS system.


               Intragovernmental TFMB receives the daily receipt reports from the
               Payment and       Program Entities and the IPAC transaction report from
               Collection (IPAC) the GWA GOALS system.
               System
                                 Federal agencies make payments to the Department of
                                 Labor using the IPAC System. The Department of
                                 Labor receives IPAC transactions, maintains the
                                 Federal Employees Compensation Act accounts
                                 receivable, and deposits collections in the UTF via SF-
                                 224.
                                   For each redemption transaction, the trust fund
                                   manager obtains the related IPAC report from the
                                   IPAC system.

               Collections         The Budget Reports Division of Fiscal Service within
               Information         GWA prepares warrants based on collections reported
               Repository          to Fiscal Service through CIR. The warrants are
                                   forwarded to TFMB.

               Central             TFMB uses the automated CARS system, maintained
               Accounting and      by Fiscal Service, to process transfers.
               Reporting System
                                   GWA configured the CARS system to authorize
               (CARS)              TFMB to transfer funds from the trust fund accounts to
                                   Program Entities’ accounts but not to transfer funds
                                   from Program Entities’ accounts to the trust fund
                                   accounts.
                                   GWA authorizes the CARS system to send the
                                   disbursement request to the STAR system using an
                                   automated interface. The CARS system changes the
                                   status of the transfer request to “STAR POSTED” on
                                   the CARS system.




                                      23                 Description of Controls Provided
                                                        by the Bureau of the Fiscal Service
 Name of Sub-     Name of system                  Function/Responsibilities
   service
 Organization

                  FACTS II          TFMB reports trust fund budget execution data in
                                    FACTS II.

                  Central           For disbursement processing, the STAR system
                  Accounting        transfers the funds from the trust fund account to the
                  System (STAR)     Program Entity account.
                                    TFMB submits, via GOALS, a SF-224 Statement of
                                    Transaction report (SF-224), which posts to STAR,
                                    and the appropriate Trust Fund accounts are adjusted
                                    for the refunds/credits.

                  Automated         Program Entities must submit all disbursement
                  Standard          requests using the ASAP system. Each day, Program
                  Application for   Entities must enter their disbursement requests into the
                  Payments (ASAP)   ASAP system by 6:00 pm EST if requesting a wire
                  System            transfer and by 11:59 pm EST if requesting an
                                    Automated Clearing House payment.
                                    During the morning of the next business day, the
                                    ASAP system transmits a file to the InvestOne
                                    accounting system that contains all of the disbursement
                                    and transfer requests.

Federal Reserve   N/A               The Federal Reserve Bank of New York accesses CIR,
Bank of New                         a Treasury on-line system in which deposit and
York                                withdrawal information is maintained at the detail and
                                    summary level, and uploads the deposit information
                                    into the Unemployment Trust Fund activity location
                                    code.

Office of         Oracle            Oracle is used to report trust fund transactions
Administrative                      processed through the InvestOne accounting system
Services                            (for all trust funds except the Unemployment Trust
                                    Fund).

Federal           N/A               FIB processes and confirms investment/redemption
Investments                         transactions and balances.
Branch (FIB)




                                       24                 Description of Controls Provided
                                                         by the Bureau of the Fiscal Service
IV.   CONTROL OBJECTIVES, RELATED CONTROLS, AND
          TESTS OF OPERATING EFFECTIVENESS




                      25
GENERAL COMPUTER CONTROLS

Control Objective 1 – System Software
Controls provide reasonable assurance that changes to system software are authorized, tested,
approved, properly implemented, and documented.
Description of Controls
The Bureau of the Fiscal Service has documented procedures for the authorization, testing,
approval, implementation, and documentation of system software changes.
The InvestOne accounting system operates within a FIT-MF environment 1. The FedInvest
system is operated within a client-server environment 2,3. FIT-MF and client-server system
software products are under vendor control for maintenance and support. Upgrades to these
products are obtained from the vendors and installed by the Information and Security Services
(ISS) specialists.
For system software changes, Fiscal Service uses the HP Service Manager (HPSM) product for
change management. All system software changes (i.e., new product installations, maintenance
upgrades, etc.) require a change record to be opened in HPSM. A change record can be opened
by any specialist in ISS for effecting such changes or the change control coordinator. The HPSM
change record includes a description of the change, implementation date of the change, a
justification, and a back-up/back-out plan.
Changes are initially discussed at the weekly change control meetings. Attendees include ISS
representatives impacted by the proposed change. Notification is sent to the assistant
commissioner, division directors, branch managers and/or staff personnel. Following the
meeting, the change control coordinator prepares and distributes the Weekly Change Control
Memorandum with information on changes for the upcoming week. This memorandum describes
the system changes, effective dates, reasons for changes or problems the changes will resolve.
There is also a reference to the HPSM change control number.
Before system software changes can be moved to production, they are tested in accordance with
the Fiscal Service’s system software change control procedures. These procedures document the
authorization, testing, approval, implementation, and documentation requirements for system
software changes. Changes progress through various environments, which differ according to the

1
    Which consists of the following system software products:
       •    z/OS Operating System
       •    Customer Information Control System (CICS)
       •    ACF2 Security
       •    Tape Management System (TMS)
       •    Control M and D (Production and Print scheduling)
       •    ETF/A (Emergency Change Control)
       •    MQSeries
       •    DB2
2
    The FedInvest system is composed of the following system software components:
        •    Spring
        •    Hibernate
        •    Java Server Faces
        •    JAVA
        •    Windows Server 2003
        •    Sybase
        •    WebSphere Application Server
3
    Reliant Services:
        •     LDAP access to Enterprise Directory Services
        •     SMTP access to Domino messaging service
                                                                26
type of system infrastructure. For the FIT-MF, there are three separate environments: test,
acceptance, and production. Each environment is a logical environment with its own datasets
and libraries. FIT-MF changes are first tested by a programmer in the test environment; moved to
acceptance, tested, and then changes are moved to the production environment following
approval. For changes to distributed software, changes are promoted up through integration,
acceptance, and production regions within similar controls described above.
All changes are reviewed and coordinated at the weekly change control meeting, and approved by
the change control coordinator prior to being moved into the production environment.
All emergency changes follow the same process as indicated above, with the exception that
changes move through the environments at an accelerated rate. Testing and approval of these
changes are documented in HPSM.
Fiscal Service has established a process that allows system programmers and database
administrators to have temporary access to the Production FIT-MF environment through the use
of a “fire-call” ID product that allows them elevated privileges for system software and
application changes. The operating system is configured to monitor and log such activity for
review and approval by management; management reviews these logs within a reasonable
timeframe after the use of "fire-call".
ISS reviews the use of sensitive system utilities included in the protected programs group on a
weekly basis and limits access to these programs based on job responsibility.

Tests of Operating Effectiveness and Results of Testing

1. Inspected written procedures for system software configuration management and determined
   that procedures were documented, including procedures to document, test, authorize, and
   approve system software changes, and properly implement changes into production.

2. Inspected the emergency system software change procedures and determined that procedures
   for implementing emergency system software changes were documented, including approval
   by management.

3. Inspected vendor maintenance support contracts for system software and determined that the
   contracts existed and were current.

4. For a selection of system software change records, inspected HPSM tickets and determined
   that HPSM was used throughout the examination period to log, track, and monitor system
   software changes.

5. For a selection of dates, inspected Weekly Change Control Memorandums and determined
   that weekly change control meetings were held to discuss planned changes with the potential
   to impact the InvestOne accounting system or FedInvest application system software.

6. For a selection of system software changes and emergency system software changes,
   inspected supporting documentation and determined that the changes were tested, authorized,
   and approved prior to implementation. There were no emergency system software changes
   during the period.

7. Inspected a list of users with access to use fire-call and determined that the list was
   commensurate with job responsibilities.



                                              27
8. For a selection of days, inspected fire-call logs and evidence of review, and determined that
   fire-call logs were reviewed by ISS management.

9. For a selection of weeks, inspected evidence of ISS’s review of reports for sensitive system
   utilities in the protected programs group and determined that the reports were reviewed.

No exceptions noted.




                                              28
Control Objective 2 – Vendor Software
Controls provide reasonable assurance that implemented new releases of vendor-supplied
applications are authorized, tested, approved, properly implemented, and documented.
Description of Controls
Fiscal Service has documented procedures for the testing and authorization of new releases of
vendor supplied applications. The change control process is under the control and direction of the
Office of Public Debt Accounting (OPDA).
The InvestOne accounting system is licensed by SunGard Investment Systems, Inc (SunGard).
Fiscal Service has a maintenance and support contract for the InvestOne accounting system with
SunGard. ISS is responsible for of all maintenance and support of the FedInvest system.
SunGard periodically provides new releases of the InvestOne accounting system, including
documentation. Each new release requires comprehensive testing. The Division of Systems and
Program Support (DSPS) tests the new InvestOne accounting system releases developed by
SunGard consistent with change control procedures for OPDA systems. New InvestOne
accounting system releases are installed in the Test environment where they are initially tested.
After successful completion of testing, ISS migrates the InvestOne accounting system new
release to the Acceptance environment, where it is subjected to acceptance testing by users. ISS
only installs an InvestOne accounting system new release in the Production environment after all
testing has been successfully completed and management has approved the InvestOne accounting
system new release for implementation in the Production environment. Fiscal Service loaded
InvestOne version 10.1 in March 2013.
In addition to new releases, SunGard will periodically provide fix tapes for the InvestOne
accounting system. Fix tapes, which address certain InvestOne accounting system issues, are
narrower in scope than new releases. Based on what changes a particular fix tape includes, Fiscal
Service management will decide whether or not to implement the fix tape. If management
decides to implement the fix tape, the fix tape is migrated through the Test and Acceptance
environments. Fix tapes are installed in the Production environment only after successful
completion of testing in the Test and Acceptance environments and management approval for
migration into the Production environment.
DSPS also tests changes to the InvestOne accounting system application reports, developed by
SunGard Investment Systems, Inc. using the same change control procedures described above.
In addition, Fiscal Service uses the version control software to manage the upgrades and
enhancements. Changes are only migrated into the production environment once all responsible
parties approve the change in the version control software. Access to migrate changes via the
version control software is limited based on job responsibility.

Tests of Operating Effectiveness and Results of Testing

1. Inspected procedures for the implementation of new releases of vendor supplied applications,
   and determined that they were documented and included requirements for authorization,
   testing, documentation, and approval.

2. Inspected vendor maintenance support contracts for the InvestOne accounting system
   software and determined that the contracts existed and were current.

3. For new InvestOne releases, inspected supporting documentation and determined that the
   releases were tested, approved, properly implemented and documented.

                                               29
4. Inspected the listing of vendor software changes and enhancements and determined that there
   were no fix tapes installed into the production environment during the examination period.

5. Inspected version control software access permissions and determined that access
   permissions to migrate changes to the production environment were restricted commensurate
   with job responsibilities.

No exceptions noted.




                                             30
Control Objective 3 – Program Change Control
Controls provide reasonable assurance that development of new applications and changes to
existing applications are authorized, tested, approved, properly implemented, and documented.
Description of Controls
Fiscal Service has documented procedures for the authorization, testing, approval,
implementation, and documentation of application software changes. The application change
control process is under the control and direction of OPDA.
SunGard has custom built additional application components for data entry and reporting.
Included is the FedInvest application, which functions as a web-based user interface that Fund
Agencies can use for entering transactions into the InvestOne accounting system. For reporting,
Fiscal Service has built internally-developed programs utilizing RM (desktop) COBOL and
mainframe COBOL that generate customized reports to provide information unavailable in the
standard InvestOne accounting system reporting package.
For RM COBOL, ISS uses a version control software 4 to control access to source code for these
internally-developed programs and to facilitate version control by requiring developers to check
source code in and out using version control software. These programs read the data from the
InvestOne accounting system and create reports. Specifically, data is downloaded from
InvestOne accounting system, using standard processes, to a data file on the FIT-MF then via ftp
to the servers where the programs execute. Data is not sent from these programs to the InvestOne
accounting system. The reports are used by the trust fund managers, sent to Fund Agencies, or
sent to U.S. Department of Treasury’s Fiscal Service, the Office of Debt Management and Office
of Fiscal Projection. The Congressional Budget Office also receives reports generated from the
InvestOne accounting system.
For FIT-MF COBOL, ISS uses a version control software 5 to control access to source code for
these internally-developed programs and to facilitate version control. These programs were
developed by ISS and reside on the mainframe, where these programs execute.
For FedInvest and customized reports, ISS uses a version control software 6 to control access to
source code for the vendor supplied and Fiscal Service managed programs to facilitate version
control. Changes to FedInvest were developed by SunGard between August 1, 2008 and
September 30, 2008 and by ISS between October 1, 2008 and July 31, 2009.
DSPS provides support for the design and testing of the above changes. DSPS creates the
requirements documentation, which is then provided to ISS (or SunGard) for development.
DSPS manages the request, documentation, testing, and approval process using a Change Control
Checklist and HPSM.
Changes using version control software progress through four separate environments: Test
Integration, Acceptance, and Production. A change is first tested by the programmer in the Test
or Integration environment. It is then migrated to the Acceptance environment where a user tests
the change using example transactions and Acceptance environment files and libraries.
Each change is reviewed by the user groups that are affected by the change, and each group
provides user concurrence that they accept the change. Following user concurrence, a senior staff
member reviews the testing materials and completes the Change Control Checklist indicating that
testing has been completed. The package is provided to the DSPS Branch Manager for final
review and approval.

4
  Microsoft Visual Source Safe
5
  Endevor
6
  ClearCase
                                               31
Once the DSPS Branch Manager approves the change, DSPS sends a Network Services Request
to ISS to move the change into the Production environment. Upon notification of an accepted
change, ISS creates an update package in version control software. Only approved changes are
installed in the Production environment.
For FIT-MF COBOL, the version control software is an application through which users approve
changes. This version control software is also used to move changed program files into the
Production environment. This version control software will not allow changes to be migrated
from the Acceptance environment into production until the changes have been approved. Access
to migrate changes to Production via the version control software change control software is
limited based on job responsibility.

Tests of Operating Effectiveness and Results of Testing

1. Inspected application software change procedures and determined that they were documented
   and included requirements for authorization, testing, documentation, and approval.

2. Inspected the access permissions and inquired of ISS management and determined that access
   to source code for internally-developed programs was commensurate with job
   responsibilities.

3. Inspected the access control lists for FedInvest and customized reports version control
   software and determined that access to the source code for FedInvest was commensurate with
   job responsibilities.

4. Inspected a selection of change records in HPSM and determined that HPSM was used
   throughout the examination period to log, track, and monitor application software changes.

5. For a selection of application software changes, inspected supporting documentation and
   determined that the changes were tested and approved.

6. Inspected version control software access permissions and determined that access
   permissions to migrate changes to the production environment were restricted commensurate
   with job responsibilities for mainframe COBOL and FedInvest.

No exceptions noted.




                                             32
Control Objective 4 – Physical Access
Controls provide reasonable assurance that physical access to computer equipment and storage
media is restricted to authorized individuals.
Description of Controls
Fiscal Service has documented policies and procedures for controlling physical access to
buildings and to the data center. These include:
     •     Identification of sensitive/critical areas to which access needs to be restricted.
     •     Physical access controls designed to detect unauthorized access.
     •     Procedures for log reviews and investigation of violations.
The InvestOne accounting system FIT-MT and FedInvest servers reside in ISS’s data center.
Various physical access controls protect the facilities. 7
The Security Branch issues employee badges, after performing security background checks and
fingerprinting.
Employees are required to have badges available at all times upon request.
Terminated employees are required to surrender identification badges and are removed from the
database security system immediately.
Physical access to the ISS Data Center is restricted to authorized users only. An employee
needing access to the data center must have his/her Branch Manager request access for a one-day
badge, which will give the employee access to the data center. The requests are made through
iET, a workflow system that is used to approve data center access. After the Branch Manager
completes and submits the iET request form for the appropriate ISS resource area access level,
requests are forwarded to ISS's data center managers for approval in the iET. If ISS approves the
request and the appropriate training is completed by the employee, the Fiscal Service Division of
Security and Emergency Programs (DSEP) Security Branch grants access. Access to all sensitive
areas requires use of a badge. The use of a badge provides an audit trail that is reviewed by ISS
management monthly for potential access violations. Any unauthorized access attempts are
followed-up on by contacting the individual’s supervisor. Individuals without badge access to the
data center must be escorted to the command center and are required to sign in/out of a Visitor
log to be issued a data center visitor badge. Visitor badges do not have access to the data center,
but rather designate the individual as a visitor. A visitor log is maintained at the main entrance to
the data center. 8
ISS performs a monthly review of individuals’ access patterns of the data center for the previous
month. ISS performs a semiannual reconciliation of individuals authorized data center access to
individuals granted data center access by DSEP. Additionally, ISS performs an annual review
and recertification of individuals with access to the data center. If an individual is found to have
unauthorized data center access, ISS will, based on the individual’s need for access, make a
decision whether to request that DSEP remove their data center access or whether to provide
authorization for their access.


7
  Armed security guards man and monitor Fiscal Service facilities 24 hours a day, 7 days a week. A digital video camera system
monitors all entrances, the building perimeter, and certain interior areas, including the data center, and records activity 24 hours a day.
All people entering each building are required to place any materials, packages, bundles, etc. onto an x-ray machine. Entrants are also
required to pass through a walkthrough metal detector. An activation of the walkthrough metal detector results in further screening by
the security guard, utilizing a handheld metal detector to identify the source of activation. In addition, entrants must swipe their badges
into an access control system that grants access to authorized personnel.
8
  Only designated DSEP specialists have access to PACS. Vendors that are authorized to have a badge are issued a One-day badge
and must leave their access badge onsite following completion of work in the data center. A log of One-Day badges is maintained and
reviewed weekly .
                                                                   33
Tests of Operating Effectiveness and Results of Testing

1. Inspected physical access policies and procedures for the data center and determined that they
   were documented and included the identification of sensitive/critical areas to which access
   needs to be restricted, physical access controls designed to detect unauthorized access, and
   procedures for log reviews and investigation of violations.

2. Observed physical access controls of Fiscal Service buildings related to FIB and the ISS data
   center and noted that security guards, video cameras, badge readers, displayed badges by
   employees, and locked doors were in place and in operation to restrict access.

3. Observed persons entering Fiscal Service buildings related to FIB and noted that persons
   were required to place any materials, packages, bundles, etc. onto an x-ray machine, and
   additionally were required to pass through a walkthrough metal detector.

4. Observed persons entering Fiscal Service buildings related to FIB and noted that an activation
   of the walkthrough metal detector resulted in further screening by the security guard, utilizing
   a handheld metal detector to identify the source of activation.

5. Observed entrants swipe their badges into the access control system and noted that the
   controls system granted access to authorized personnel.

6. For a selection of personnel granted data center access, inspected supporting documentation
   and determined that access badges were issued to personnel with a completed background
   check and fingerprinting.

7. Observed employees within the Fiscal Service buildings related to FIB and noted that badges
   were displayed.

8. Inspected the data center access list and compared to a list of separated employees and
   determined that separated employees were removed from the badge reader system.

9. Inspected a list of employees with card key access to the data center and tape storage room
   from the card security system and an organizational listing showing employees requiring
   access to the data center and tape storage room and determined that physical access to the ISS
   data center was restricted to authorized employees only.

10. For a selection of employees and contractors granted access to the data center during the
    examination period, inspected the iET record for the access granted and determined that
    access was approved by the data center manager.

11. Inspected permissions to access the PACS badge system of Fiscal Service security
    management, and determined that access permissions to the physical access systems were
    commensurate with job responsibilities.

12. For a selection of months, inspected evidence of the monthly review of violation logs and
    determined that a review to identify unauthorized access attempts was performed and
    violations were followed-up on.

13. For a selection of dates, inspected visitor logs and determined that visitor logs were reviewed.



                                                34
14. For a selection of days, inspected shift logs and determined that an inventory of vendor
    badges was performed.

15. Inspected documentation of the monthly review of physical access privileges to the data
    center and determined that access privileges were reviewed.

16. Inspected documentation of the annual recertification of physical access privileges to the data
    center and determined that access privileges were recertified.

No exceptions noted.




                                                35
Control Objective 5 – Logical Access
Controls provide reasonable assurance that logical access to system and application software is
restricted to authorized individuals.
Description of Controls
Fiscal Service has guidelines for the preparation of security plans for applications and systems
that process Sensitive but Unclassified information. All mission-critical systems and general
support systems are subject to an internal risk-based review every three years. This review
identifies assets and possible threats to these assets, provides a measure of vulnerability of the
system to these threats, and confirms control or protective measures are in place.
The InvestOne accounting system is classified as a mission-critical system.
InvestOne accounting system security along with the host FIT-MF’s security package controls
access to the InvestOne accounting system. InvestOne accounting system security restricts access
to accounts within the system based on user banks and user identification (UID). InvestOne
accounting system access is restricted to authorized personnel. The security settings are also used
to restrict ISS personnel’s access to system software, data files, and program libraries.
FedInvest is a web-based user interface through which users have access to enter transactions into
and view InvestOne accounting system data. External users are limited to accessing InvestOne
accounting system data through FedInvest. External users that invest in Government Account
Series (GAS are able to connect to FedInvest over the Internet to input transactions into the
InvestOne accounting system as well as to view account statements and transaction information.
Administrator access permissions are allocated in the FedInvest and the InvestOne accounting
system users commensurate with their job responsibilities.
OPDA follows Fiscal Service system administration security password guidelines/procedures to
establish and maintain passwords. 9 Passwords are not displayed when entered. The reserved
word feature is enabled to prevent the use of commonly used words in passwords.
Information System Security Representatives (ISSRs) manage access to the InvestOne accounting
system. Users must complete and submit an Access Request/ Revoke Form to the Division of
Federal Investments (DFI) who approves the form and forwards to DSPS before access is
granted. DFI personnel authorize the form and forward to OPDA ISSRs to process the request.
DSPS has documented procedures for granting access. Modifications to user accounts require use
of the same Access Request/Revoke Form.
External users must have their supervisor’s approval along with DFI approval documented on an
Access Request/Revoke form before access is granted to FedInvest. When an external user
accesses InvestOne accounting system data, they enter a user ID and password into FedInvest.
User IDs are authenticated by a security utility10. If the required authentications failed, the user
would be prevented from accessing InvestOne accounting system data through FedInvest.
ISSRs remove FedInvest and InvestOne accounting system access from users at the request of
their managers/supervisors or FIB personnel. Each access removal request is documented on an
Access Request/Revoke Form.
On a routine basis, ISSR reviews Internal Violations Reports for any inappropriate activity;
follow-up is notated on the report.


9
  These guidelines require passwords to be at least 8 characters in length, changed every 30 days for ACF2 and every 90 days for
LDAP, and unique for each individual.
10 Fiscal Service's standard authentication utility, FMS Login, is used to authenticate users. User credentials are stored in the's
enterprise directory.
                                                                  36
Additionally, on a periodic basis an ISSR reviews a report of all InvestOne accounting system
user IDs that have not been used to access InvestOne accounting system within a predetermined
number of days 11. The ISSR follows up with any affected users by email or by phone.
Additionally, OPDA recertifies access to mission critical systems by verifying access privileges
for all InvestOne accounting system and FedInvest users. DSPS ISSRs remove or modify any
user IDs or access privileges identified for deletion or changes by the user’s manager/supervisor
or DFI personnel when accompanied by an Access Request/Revoke Form.

Complementary Program Entity Controls

Fund Agencies should establish controls to:

•       Ensure that access to FedInvest is restricted to properly authorized individuals.

Tests of Operating Effectiveness and Results of Testing

1. Inspected the relevant System Security Authorization documentation of the InvestOne
   accounting system and FedInvest systems and determined that the system had been
   authorized to operate.

2. Inspected the InvestOne accounting system and FedInvest risk assessment and determined
   that a risk assessment was performed.

3. Inspected the InvestOne accounting system and FedInvest security plan and determined that
   the plan was documented.

4. Observed a user log into the InvestOne accounting system and the FedInvest system and
   noted that their access was restricted in accordance with the system configuration.

5. For each InvestOne accounting system user, compared access granted to an OPDA
   Organization Chart and determined that access privileges were commensurate with job
   responsibilities.

6. Inspected security guidelines and procedures for administrator privileges InvestOne
   accounting system and FedInvest and determined that security guidelines and procedures
   were documented for the administrator privileges.

7. Inspected a list of users with administrator access privileges to InvestOne accounting system
   and FedInvest and determined that access was limited commensurate with job
   responsibilities.

8. Inspected an OPDA Organizational Chart and determined that administrator access was
   commensurate with job responsibilities.

9. Inspected security guidelines and procedures for InvestOne and FedInvest and determined
   that logical access controls procedures were documented.

10. Inspected password settings for InvestOne accounting system and FedInvest and determined
    that password length, complexity, and expiration settings were configured in accordance with
    Fiscal Service requirements.

11
     A list of InvestOne users that have not logged into InvestOne for 45 days or more is reviewed monthly.
                                                                   37
11. Observed a user log into InvestOne accounting system and FedInvest and noted that their
    password was masked as they entered it.

12. For a selection of new InvestOne users, inspected documented user access request forms and
    determined that access was authorized by FIB and the user’s supervisor.

13. For a selection of new FedInvest users, inspected documented user access request forms and
    determined that access was authorized by FIB and the user’s supervisor.

14. Inspected a list of all separated and transferred Fiscal Service employees with InvestOne or
    FedInvest access and lists of InvestOne accounting system and FedInvest user IDs and
    determined that access to InvestOne accounting system and FedInvest had been revoked for
    terminated and transferred Fiscal Service employees with InvestOne or FedInvest access.

15. For a selection of weeks, inspected ACF2 InvestOne audit log reports and evidence of
    review, and determined that the reports were reviewed by an ISSR and any exceptions were
    followed-up.

16. For a selection of months, inspected evidence of review and removal of inactive accounts and
    determined that inactive user accounts were reviewed and removed on a monthly basis.

17. Inspected documentation of the review and recertification of internal InvestOne accounting
    system and FedInvest user access and determined that internal InvestOne accounting system
    and FedInvest user access were reviewed and recertified.

18. For a selection of external FedInvest users, inspected documentation of the review and
    recertification of external FedInvest user access and determined that external FedInvest user
    access were reviewed and recertified.

19. For a selection of user account recertification reviews requesting removal of user access
    privileges, inspected InvestOne accounting system and FedInvest user lists, and determined
    that requested modifications were made.

No exceptions noted.




                                               38
Control Objective 6 – Computer Operations
Controls provide reasonable assurance that computer processes are scheduled appropriately and
deviations are identified and resolved.
Description of Controls
The InvestOne accounting system is an interactive FIT-MF system with master data files that are
updated when entries are posted. End-of-day processes perform maintenance to the data files
and data backups. ISS support personnel complete the Production Control Daily Checklist to
verify the successful completion of end-of-day processes. Data entry error checking and input
screen designs help ensure that the data entered by the users is accurate and complete. The error
checks include verification of entered data based on predetermined values and ranges. Errors
detected by the system are rejected immediately and must be corrected before the transaction is
permitted to update the master data tables.
Daily user operations procedures are posted for the InvestOne accounting system to provide
operators with the information necessary to sequentially complete daily processing. Additionally,
a monthly calendar is posted that highlights the daily requirements. The InvestOne accounting
system configuration requires that daily reporting be performed in sequence before transaction
processing can begin.
The mainframe job scheduler software controls the scheduling of batch jobs for the InvestOne
accounting system. The job scheduler allows all programs for batch processing, printing and data
backup to be scheduled and performed automatically. Access to the job schedules is limited to
ISS support personnel and privileges are commensurate with job responsibilities. The job
scheduler sends messages confirming successful completion of each day’s scheduled jobs to ISS
and DSPS. Any abends are also communicated to the appropriate ISS and OPDA personnel as
they happen through automated messages. Abends are resolved and jobs are restarted as
necessary through the job scheduler.

Tests of Operating Effectiveness and Results of Testing

1. For a selection of dates, inspected Production Control Daily Checklists and determined that
   the checklists were used during processing.

2. Observed transactions entered into the InvestOne accounting system and noted that error
   checking edits prevented users from entering values of the wrong data type or values not on
   lookup lists.

3. Inspected posted daily user operations for InvestOne accounting system and FedInvest, the
   FIB Daily Procedures, and the monthly requirements calendar and determined that these
   schedules and procedures were available.

4. For a selection of months, inspected the monthly requirements calendars and determined that
   these schedules were available.

5. Inspected the InvestOne accounting system job schedule and determined that a job production
   schedule for the InvestOne accounting system was documented.




                                               39
6. Inspected privileges of individuals granted access to make modifications to schedules and job
   control language for production jobs in the mainframe job scheduler and inquired of
   management regarding job responsibilities, and determined that access privileges were
   limited commensurate with job responsibilities.

No exceptions noted.




                                              40
Control Objective 7 – Network Performance Monitoring
Controls provide reasonable assurance that network performance monitoring techniques are
implemented appropriately.
Description of Controls
Users must be connected to the Fiscal Service network in buildings where FIB is supported to
access the InvestOne accounting system. Additionally they must run terminal emulation software
to connect to the FIT-MF environments. Network performance and availability is monitored by
ISS at all times. 12

Tests of Operating Effectiveness and Results of Testing

1. Observed ISS Command Center staff and noted that monitoring tools were used to monitor
   the performance and availability of Fiscal Service networking equipment, such as switches
   and firewalls.

2. Observed ISS Command Center staff and noted that tools were used to monitor the
   performance and availability of the FedInvest website.

3. Inquired of management and were informed that the ISS Command Center was staffed 24
   hours a day.

No exceptions noted.




12
   Using the following utilities:
A combination of monitoring tools (ManageEngine OP Manager and HP Sitescope) are used to monitor networking equipment such as
switches and firewalls. These tools automatically report any network equipment or application outages to the Network Operations
Center.
                                                             41
TRUST FUNDS MANAGEMENT PROCESSING CONTROLS

Control Objective 8 – Procedures

Controls provide reasonable assurance that management has defined, documented, and
communicated procedures associated with operational areas within the Trust Funds Management
Branch (TFMB).

Description of Controls

The purpose of each trust fund is to account for assets for specific programs directed by the
Program Entities, pursuant to specific enabling legislation that created and continues to authorize
the operation of each specific trust fund. The Secretary of the Treasury, through the Fiscal
Assistant Secretary, is responsible for processing certain trust fund activity and reporting this
activity.

TFMB services the trust funds in accordance with established laws, fiscal and other Treasury
policies that govern the trust funds. TFMB’s responsibilities include establishing accounting
records, processing transactions, determining the timing and condition of transactions,
maintaining reference files, and recording adjustments. TFMB records transactions based on
information provided by Fiscal Service, Program Entities, and other organizations.

TFMB has defined and communicated procedures regarding the trust fund operations in Standard
Operating Procedures (SOP) manuals. The SOP manuals provide guidelines for processing
transactions including receipts, investments, redemptions, investment income, and disbursements.

Additional reference materials including Federal Government accounting standards; U.S.
Standard General Ledger (USSGL) accounting and reporting requirements; and Treasury-wide
and Fiscal Service- wide accounting and reporting policies are readily available in electronic
format on the Internet. In addition, the SOP manuals provide guidelines for records maintenance
and periodic reporting. The SOP manuals are maintained electronically and include electronic
links to the additional reference materials listed above. TFMB employees with access to the
TFMB directory have the ability to read the SOP manuals. Access to revise the SOP manuals,
which are password protected, is restricted to only the TFMB employees that have been approved
by management.

Tests of Operating Effectiveness and Results of Testing

1. Inspected SOP manuals and observed operational areas and determined operational areas
   were operating in accordance with procedures.

2. Inquired of TFMB trust fund managers and inspected the SOP manuals online and
   determined the SOP manuals were available for TFMB trust fund managers reference.

3. Inspected the SOP manuals online and determined that the SOP manuals were stored in a
   read-only format.

No exceptions noted.




                                                42
Control Objective 9 – Receipts Processing

Controls provide reasonable assurance that receipt transactions are authorized, processed, and
recorded accurately in the proper fiscal year.

Description of Controls

TFMB has documented policies and procedures for staff to follow for the processing of receipt
transactions.

All Trust Funds Except the Unemployment Trust Fund

Office of Tax Analysis (OTA), Internal Revenue Service (IRS), Customs and the Program
Entities determine the trust fund receipts. The receipts primarily include:

   •     Excise taxes – Treasury’s OTA estimates the monthly excise taxes based on
         projected excise tax receipts and sends the estimate to Government-wide
         Accounting (GWA) and TFMB. On two specified work days of each month,
         GWA issues a warrant (SF-1017) to increase the respective trust fund’s account,
         with each warrant containing exactly half of the OTA estimated monthly excise
         taxes. GWA sends TFMB email notification that the warrants have been
         processed in Central Accounting and Reporting System (CARS). TFMB pulls
         the warrants from CARS and verifies the warrants to the estimates received from
         OTA. At the end of each calendar quarter the IRS certifies the excise taxes
         actually collected and sends the certification to GWA. The IRS generally
         certifies excise taxes within two quarters after the taxes are estimated (i.e., 1st
         quarter estimate is certified in the 3rd quarter). GWA calculates the excise tax
         adjustment as the difference between the excise taxes estimated by OTA and
         excise taxes certified by the IRS. GWA enters a warrant in CARS to increase or
         decrease the respective trust fund’s account and sends TFMB email notification
         that the warrants have been processed in CARS. FMS also faxes the adjustment
         documentation prepared by the IRS to TFMB. TFMB prints the warrants from
         CARS and agrees the warrants to the adjustment documentation prepared by the
         IRS. The IRS determines the amount of excise tax refunds/credits and sends the
         adjustment to TFMB to be processed. TFMB reports the tax adjustments received
         prior to issuance of the annual financial reports in the annual financial reports to
         which the tax adjustment relates to; however, TFMB associated investment or
         redemption transactions are processed on the actual date TFMB receives the
         warrant.

       • TFMB records tax adjustments following the process discussed above and
         processes the related investment purchase/redemption when recorded the day the
         tax adjustment information is received. In addition, for adjustments received
         after September 30, the trust fund manager also reviews the tax adjustments to
         identify adjustments that relate to the prior fiscal year. And for those adjustments
         that do relate to the current fiscal year, the trust fund manager reviews the tax
         adjustments received after September 30 to identify tax adjustments that relate to
         the prior fiscal year. For tax adjustments that relate to the prior fiscal year, the
         trust fund manager enters the tax adjustment into InvestOne (i.e., adjusts tax
         revenue and tax receivable/payable) and provides the tax adjustment supporting
         documentation to the reviewing trust fund manager. The reviewing trust fund
         manager compares the tax adjustment supporting documentation to InvestOne to
                                                 43
    ensure that the tax adjustment is properly recorded (i.e., tax revenue and tax
    receivable/payable) and documents approval on the tax adjustment
    documentation.

•   Oil Spill Drawbacks – Monthly the U.S. Customs Department submits to GWA a
    Statement of Transaction report (SF-1220) which charges the Oil Spill Liability
    Trust Fund for claims made by oil importers on excise tax charges. TFMB
    receives a copy of the SF-1220 from the U.S. Customs Department via email and
    records a negative receipt to reduce excise taxes in the Oil Spill Liability Trust
    Fund for these claims.

•   Federal Insurance Contribution Act (FICA) and Self-Employment Contribution
    Act taxes (SECA) – Amounts equivalent to 100 percent of FICA and SECA
    taxes are designated to be transferred to specified trust fund accounts. Treasury’s
    OTA estimates the monthly taxes, determines the amounts to be transferred to the
    appropriate trust funds, and sends the estimate to GWA. GWA sends TFMB the
    daily FICA and SECA tax deposit information. TFMB allocates the deposits to
    the appropriate trust funds based on the monthly OTA estimates and provides the
    investment amounts to GWA. GWA confirms the investment totals back to
    TFMB and prepares the tax warrant. After each month-end, TFMB agrees the
    daily warrants to the amounts reported by GWA on the CARS Account
    Statement for each trust fund. Estimated tax collections are adjusted in
    subsequent transfers to the amount of actual tax receipts certified by the IRS and
    the respective Program Entities.

•   Customs Duties – The Department of Homeland Security’s (DHS) Customs and
    Border Protection’s Office of Border Patrol notifies TFMB monthly of actual
    receipts collected and deposited in the Sport Fish Restoration and Boating Trust
    Fund and Harbor Maintenance Trust Fund. Customs notifies TFMB the first
    workday of the month the actual amounts for the previous month by sending
    TFMB an email.

•   Fines, penalties, and cost recoveries – Collected fines, cost recoveries, and
    penalties are transferred from the collecting agencies directly to the trust funds’
    accounts. The collecting agencies fax notification of the receipts to TFMB. In
    most cases, the notification is also mailed by the collecting agency to TFMB.

•   Civil penalties and damages – Agencies mandated to collect civil penalties and
    fines for deposit into a specific trust fund send TFMB a letter or
    Intragovernmental Payment and Collection (IPAC) transaction report. These
    documents list the civil penalties and damages that are collected and the 3
    percent administrative cost to be reimbursed to the trust fund. TFMB prepares a
    separate letter requesting the collected penalties and damages, and the
    administrative fee withheld by the Federal agency and sends the letter to GWA.
    GWA issues a warrant to TFMB via CARS.

•   Appropriations – Certain Program Entities receive annual appropriations to fund
    payments to the trust funds in accordance with legislation. The Program Entities
    process the transfer via the IPAC system to allocate the funds to the proper trust
    funds. TFMB receives the IPAC transaction report from the GOALS system.


                                            44
    •   Donated revenue – Donated revenue represents gifts from individuals. TFMB
        receives receipt reports from Program Entities throughout the month.

    •   Transfers in from program agencies – Transfers are the result of IPAC or SF
        1151 Non-Expenditure Transfers that TFMB receives from Program Entities.

    •   Collected premiums and Federal matching funds – Amounts withheld from
        Social Security beneficiary checks and the related Federal matching funds are
        transferred by the Program Entities to the appropriate trust funds using the SF-
        224 and the IPAC system. TFMB receives the daily receipt reports from the
        Program Entities and the IPAC transaction report from the GOALS system.

TFMB submits, via CARS, a CTA/SF-224 Statement of Transaction report for certain
transactions, which posts to the central accounting system (STAR), and the appropriate Trust
Fund accounts are adjusted for the refunds/credits.

TFMB processes receipt notifications received prior to 3:00 pm EST the day they are received
and the next business day if the notifications are received after this deadline. Using the receipt
documentation noted above, the trust fund manager: 1) enters the receipts into the InvestOne
accounting system; 2) enters the investment/redemption request (IRR) into FedInvest system,
which processes the investment purchase, records the investment in InvestOne, and generates a
confirmation;3) prints the investment confirmation; 4) prepares and signs the DTSP 5) provides
the DTSP to the reviewing trust fund manager for review

The trust fund manager compares the transaction from InvestOne (i.e., the Cash Forecasting
Report) to the transaction documentation (i.e., Treasury warrants, excise tax receipts, FICA and
SECA tax deposits, agency program letters, reports, or fax notifications, IPAC documents, or SF-
1151 Non-Expenditure Transfers) and investment confirmation to ensure that the transaction is
properly recorded and classified. The trust fund manager documents completion of the
comparison by signing the DTSP.

The reviewing trust fund manager reviews the supporting documentation to ensure that the
receipts are authorized by legislation, received from the appropriate Program Entities, and do not
contain any obvious errors. The reviewing trust fund manager also compares the receipt
supporting documentation to InvestOne, the IRR (for non-daily investments), and investment
confirmation to ensure that the receipt is properly recorded and documents approval on the DTSP.
The reviewing trust fund manager returns the supporting documentation to the trust fund
manager.

The Unemployment Trust Fund (UTF)

The primary receipts for the UTF are as follows:

    •   Federal unemployment taxes – The Federal unemployment taxes fund the
        Employment Security Administration Account established pursuant to Title IX,
        section 901(a), of the Social Security Act. This account funds administrative
        expenses of the UTF and provides intra-fund transfers to the other Federal
        accounts within the UTF. The Budget Reports Division of GWA prepares
        warrants based on collections reported to Fiscal Service through CIR. The
        warrants are forwarded to TFMB.


                                               45
    •   Federal Employees Compensation Act (FECA) accounts receivable – Federal
        agencies make payments on FECA accounts receivable pursuant to Title IX,
        section 909, of the Social Security Act to fund unemployment benefits for former
        Federal civilian and military personnel. Federal agencies make payments to the
        Department of Labor using the IPAC System. The Department of Labor receives
        IPAC transactions, maintains the FECA accounts receivable, and deposits
        collections in the UTF via CTA/SF-224.

    •   State unemployment taxes – TFMB established 53 separate Unemployment
        Insurance (UI) book accounts for the States, the District of Columbia, Puerto
        Rico, and the Virgin Islands. Daily, these Program Entities use FEDWIRE to
        transfer deposits from local banks to the Federal Reserve Bank in New York to
        the UI book accounts. These deposits are summarized on a SF-215 Deposit
        Summary form (SF-215) by Pittsburgh National Corporation (PNC). The
        Federal Reserve Bank in New York accesses CIR, a Treasury on-line system in
        which deposit and withdrawal information is maintained at the detail and
        summary level, and uploads the deposit information into the UTF activity
        location code. The trust fund manager retrieves the amount of the Program
        Entity unemployment tax receipts through read-only access to CIR.

    •   Deposits by the Railroad Retirement Board – Each day TFMB checks for any
        Railroad Retirement Board receipt reports forwarded from the Railroad
        Retirement Board to be included in the Railroad Unemployment Insurance and
        Administration Accounts. TFMB agrees the receipts from the receipt report to
        the amounts reported by the Railroad Retirement Board on the CTA/SF-224.

The trust fund manager processes receipts received prior to 3:00 pm EST the day they are
received and the next business day if the receipts are received after 3:00 pm EST. The trust fund
manager: 1) enters the receipts into InvestOne; 2) prepares an IRR based on the daily activity; 3)
enters the IRR into FedInvest, which processes the investment purchase, records the investment
in InvestOne, and generates a confirmation; 4) prints the investment confirmation; and 5)
provides the receipt supporting documentation along with the IRR and investment confirmation to
the reviewing trust fund manager.

The trust fund manager compares the transaction as recorded within InvestOne to the transaction
documentation (i.e., Automated Standard Application for Payments System (ASAP) reports, CIR
reports, letters from the Program Entities and IPAC reports) to ensure that the transaction is
properly recorded and classified. The trust fund manager documents completion of the
comparison by signing the DTSP.

The reviewing trust fund manager reviews the supporting documentation to ensure that the
receipts are authorized by legislation, are received from the appropriate Program Entities, and do
not contain any obvious errors. In addition, the reviewing trust fund manager compares the
receipt supporting documentation to InvestOne, the IRR, and investment confirmation to ensure
that the receipt is properly recorded and approves the DTSP.

Complementary Program Entity Controls

Program Entities should establish controls to:

•   Verify that only authorized receipts are deposited into the trust funds.

                                                 46
•   Determine and approve receipt amounts.

•   Provide receipt information to TFMB within the required time frames.

•   Review the monthly financial reports provided by TFMB to ensure that receipts are posted
    accurately.

Tests of Operating Effectiveness and Results of Testing

1. Inspected documented SOPs and observed the trust fund managers and reviewing trust fund
   managers process receipts and determined that receipt transactions were processed in
   accordance with the procedures.

2. For a selection of receipts processed, inspected supporting receipt documentation and IRRs
   and determined that the receipts were documented and authorized.

3. For a selection of receipts processed, inspected supporting receipt documentation, IRR, Cash
   Forecasting Report, investment confirmation, and the InvestOne accounting system and
   determined that the receipts were reviewed and approved by the trust fund manager and that
   the receipts were processed and recorded accurately in the proper period.

4. For a selection of tax adjustments processed subsequent to year end (i.e., September 30,
   2012), inspected the tax adjustment supporting documentation and the InvestOne accounting
   system and determined that the tax adjustments were reviewed and approved by the
   reviewing trust fund manager and that the tax adjustments were processed and recorded
   accurately in the proper period.

No exceptions noted.




                                              47
Control Objective 10 – Investment Purchase Requests

Controls provide reasonable assurance that investment requests are authorized, processed, and
recorded accurately in the proper period.

Description of Controls

TFMB has documented policies and procedures for staff to follow for the processing of
investment requests.

Pursuant to the trust funds’ enabling legislation, TFMB invests the portions of the trust funds’
assets that are not necessary to meet current withdrawals. In accordance with legislation, TFMB
purchases non-marketable Treasury securities that are held in the name of the Secretary of the
Treasury for the trust funds. The Treasury securities are purchased and redeemed through the
Federal Investments Branch (FIB). TFMB determines the type and term of the Treasury security
to purchase based on the following factors:

    • Type of security allowed by legislation
    • Division of Federal Investment’s guidelines for investing
    • Discussions with Program Entities to determine their expected future cash flow
      needs
    • Guidance issued by the Office of Fiscal Assistant Secretary

TFMB purchases securities using the FedInvest system that is maintained by FIB and ISS. For
trust funds that are invested continuously in overnight securities, InvestOne automatically
redeems and reinvests the overnight securities. The trust fund manager prints a Cash Forecasting
Report InvestOne that displays the previous day’s overnight redemptions and current
reinvestments. The trust fund manager compares the reinvestments (i.e., “Buy” transactions) to
the previous day’s maturity to verify that they net to zero, investigates and resolves any
differences, and signs the DTSP. The reviewing trust fund manager reviews each Cash
Forecasting Report and documents approval by signing the DTSP.

For all other trust funds, the trust fund manager determines the amount to invest by inspecting the
Cash Forecasting Report from the InvestOne accounting system. The Cash Forecasting Report
summarizes the daily receipts and disbursements that have been posted within InvestOne.

To purchase an investment, the trust fund manager prepares and enters the investment request
into FedInvest and FedInvest generates an on-line Investment Confirmation.

Certificate of Indebtedness (C of I) par value securities have a maturity date of June 30th. In
accordance with Treasury fiscal policy, FIB automatically reinvests the par value securities upon
maturity. On the maturity date, InvestOne processes the maturity automatically and FIB
manually processes the reinvestment, into InvestOne. The corresponding confirmations are
available in FedInvest.

For certain other selected investment requests, the trust fund manager manually prepares and
provides the IRR to FIB. FIB enters the investment into FedInvest.

Upon entry of the transaction into FedInvest, an on-screen confirmation of the transaction is
presented to the purchaser.


                                                48
The trust fund manager compares the IRR investment type, amount, purchase date, and maturity
date to the Investment Confirmation. After investigating and resolving any differences, the trust
fund manager approves the IRR and the Investment Confirmation. The trust fund manager
provides the IRR, Investment Confirmation, the Cash Forecasting Report, and the
receipt/disbursement source documentation to the reviewing trust fund manager.

The reviewing trust fund manager inspects the IRR, the Investment Confirmation, the Cash
Forecasting Report, and the receipt/disbursement source documentation to ensure that the proper
amount was invested, to confirm that the trust fund manager purchased an authorized investment,
and to ensure that the investment amount and timing is consistent throughout all of these
documents. The reviewing trust fund manager documents their approval on the DTSP.

Complementary Program Entity Controls

Program Entities should establish controls to:

•   Verify that the type and term of the investments purchased are appropriate in relation to
    expected cash flow needs.

Tests of Operating Effectiveness and Results of Testing

1. Inspected SOPs and observed the trust fund managers and reviewing trust fund managers
   process investment requests and determined that the investment requests were processed in
   accordance with the procedures.

2. For a selection of investment purchases, inspected the Investment/Redemption Requests, the
   Investment Confirmation, Cash Forecasting Report, supporting receipt/disbursement
   documentation, and the InvestOne accounting system and determined that the investment
   transactions were documented, authorized in accordance with legislation, and processed and
   recorded accurately and in the proper period.

3. For a selection of investment purchases, inspected the Investment/Redemption Requests and
   the Investment Confirmation and determined that the reviewing trust fund manager reviewed
   and approved the investment purchases.

4. Observed and noted a trust fund manager enter a selection of investment purchases into
   FedInvest, inspected the on-screen confirmations received by TFMB and noted that on-screen
   confirmations confirmed the successful recording of the investment purchase into FedInvest
   and InvestOne.

5. For a selection of days, inspected the cash forecasting report from trust funds that invest
   continuously in overnight securities and determined that a TFMB trust fund manager
   performed a comparison of the reinvestment to the previous day’s maturity, that the trust fund
   manager signed the DTSP, that the reviewing TFMB trust fund manager reviewed and signed
   the DTSP, and that any differences were resolved.

No exceptions noted.




                                                 49
Control Objective 11 – Investment Income

Controls provide reasonable assurance that investment income, amortization and gains or losses
are processed and recorded accurately in the proper period.

Description of Controls

TFMB has documented policies and procedures for staff to follow for the processing of
transactions related to investment income, amortization, and gains/losses.

Interest Payments Received

The trust funds receive interest daily for one-day securities, semi-annually on June 30 and
December 31 for par value (C of I’s) and semi-annually at various dates for market-based bonds
and notes. The market-based bills do not make periodic interest payments therefore interest
income is equal to the purchased discount, which is received when the securities mature or are
redeemed. Interest received is a receipt to the trust funds and is either used to meet a Program
Entities’ disbursement request or is reinvested.

At the time an investment purchase is recorded, the investment terms (i.e., cost,
discount/premium, interest rate, issue date, maturity date, amortization/accretion method,
payment frequency, payment month and day, and first coupon date) are established based on the
security purchased. InvestOne automatically calculates and records interest income based on the
investment terms in the system.

Accrued Interest Receivable

Accrued interest receivable is recorded by TFMB for accounts that hold notes or bonds. One-day
securities mature on the next business day and therefore generally do not accrue interest. For
one-day securities purchased on Friday, interest accrues until the date of maturity.

At the time an investment purchase is recorded, the investment terms (i.e., cost,
discount/premium, interest rate, issue date, maturity date, amortization/accretion method,
payment frequency, payment month and day, and first coupon date) are entered into InvestOne by
FIB. InvestOne automatically calculates and records interest accruals based on the corresponding
investment terms. The trust fund manager and reviewing trust fund manager review the interest
balances on the monthly trial balance reports for reasonableness and to ensure that the interest
balances are properly recorded and classified and documents approval on the monthly financial
review checklist.

Discount/Premium

TFMB purchases non-marketable market-based bills at a discount and non-marketable market-
based bonds and notes at a discount or premium.

At the time an investment purchase is recorded, the investment terms (i.e., cost,
discount/premium, interest rate, issue date, maturity date, amortization method, payment
frequency, payment month and day, and first coupon date) are entered into InvestOne. InvestOne
automatically calculates and records amortization of discount/premium based on the
corresponding investment terms. InvestOne calculates amortization for bills (i.e., short-term
securities) using the straight-line method and for bond/notes (i.e., long-term securities) using the
level yield method that approximates the interest method.
                                                50
On a monthly basis, the trust fund manager and reviewing trust fund manager reviews the trial
balance report which lists amortization of discounts and premiums and compares it to the
financial report and documents approval on the monthly financial review checklist.

Gains and Losses

Gains and losses may occur each time a market-based security is redeemed prior to maturity.

When a security is redeemed, FedInvest processes the redemption, including the proceeds of the
redemption, into InvestOne. InvestOne calculates and records a gain or loss based on the
difference between the redemption proceeds and book value (i.e., cost plus/minus amortized
discount/premium). The trust fund manager and reviewing trust fund manager review the
gains/losses on the monthly trial balance reports for reasonableness and to ensure that the
gains/losses are properly recorded and classified and documents approval on the monthly
financial review checklist.

Complementary Program Entity Controls

Program Entities should establish controls to:

•   Verify that the type and term of the investments purchased and related investment income are
    appropriate in relation to expected cash flow needs.

Tests of Operating Effectiveness and Results of Testing

1. Inspected SOPs and observed trust fund managers and reviewing trust fund managers process
   and record interest, and amortization transactions and determined that the processing was
   performed in accordance with the procedures.

2. For a selection of transactions, inspected interest, gain/loss, and amortization documentation,
   inspected the InvestOne accounting system, and determined that transactions were
   documented, mathematically accurate, processed and recorded accurately and in the proper
   period.

3. For a selection of months, inspected the monthly financial review checklist and the monthly
   trial balance and determined that the trust fund managers reviewed the interest balances for
   reasonableness.

4. For a selection of months, inspected the monthly financial review checklist, amortization
   report, trial balance report, and financial report, and determined that the trust fund managers
   completed the reconciliations.

5. For a selection of months, inspected the monthly financial review checklist and the monthly
   trial balance and determined that the trust fund managers reviewed the gains/losses for
   reasonableness

No exceptions noted.




                                                 51
Control Objective 12 – Investment Redemption Requests

Controls provide reasonable assurance that redemption requests are authorized, processed, and
recorded accurately in the proper period.

Description of Controls

TFMB has documented policies and procedures for staff to follow for the processing of
redemption requests.

Investments are redeemed primarily when the Program Entities request transfers from the trust
funds. For trust funds that invest in market-based securities, the trust fund manager nets the
receipts, investment maturities, and the disbursements. If the net result is a reduction, a
redemption request is prepared. If the net results in an increase, an investment request is
prepared. (See Control Objective 10) For trust funds that invest in par value securities, the trust
fund manager generally invests receipts and redeems investments for disbursements as separate
transactions.

When redeeming a market-based security, the trust fund manager generally selects the security
with the earliest maturity date. When redeeming a par value security, InvestOne selects the
security in the following order: earliest maturity date, lowest prevailing interest rate, and first
security in first security out.

TFMB redeems securities by completing the request in FedInvest, which is maintained by FIB
and ISS. To redeem a security, the trust fund manager completes the following steps:

    •   The trust fund manager prepares the IRR.
    •   The trust fund manager enters, reviews and submits the redemption request in
        FedInvest, which processes the redemption request and prepares an on-line
        Redemption Confirmation.

For redemptions on non-business days, June 30 rollovers, and other selected redemption requests,
the trust fund manager manually prepares the IRR, and provides a copy to FIB. FIB manually
executes the redemption in InvestOne.

C of I par value securities have a maturity date of June 30th. In accordance with Treasury fiscal
policy, FIB automatically reinvests the par value securities upon maturity. On the maturity date,
InvestOne processes the maturity automatically and FIB manually processes the reinvestment into
InvestOne. The corresponding confirmations are available in FedInvest.

Market-based securities have various maturity dates. On the maturity date, InvestOne processes
the maturity and creates a confirmation, which is made available in FedInvest.

The trust fund manager provides the Redemption Confirmation and the IRR to the reviewing trust
fund manager. The reviewing trust fund manager compares the investment type, amount,
redemption date, and the maturity date from the Redemption Confirmation to the IRR to verify
that the redemption was authorized and that the redemption amount and timing is consistent
throughout these documents. Any differences are investigated and resolved. The reviewing trust
fund manager documents approval on the DTSP.




                                                52
Tests of Operating Effectiveness and Results of Testing

1. Inspected SOPs and observed the trust fund managers and reviewing trust fund managers
   process and record redemption transactions and determined that the transactions were
   processed in accordance with the procedures.

2. For a selection of redemption transactions, inspected the Redemption Confirmation, the IRR,
   and the InvestOne accounting system and determined that the transactions were documented,
   reviewed, and approved by the reviewing trust fund manager and processed and recorded
   accurately in the proper period.

No exceptions noted.




                                             53
Control Objective 13 – Disbursement Processing

Controls provide reasonable assurance that withdrawals/disbursements are authorized, processed,
and recorded accurately in the proper period.

Description of Controls

TFMB has documented policies and procedures for staff to follow for the processing of
disbursements.

All Trust Funds

Disbursements primarily consist of transfers to Program Entities, administrative expenses, and
interest penalties under the Cash Management Improvement Act. The Program Entities are
responsible for verifying that the disbursement is in compliance with legislation, determining the
amount of the disbursements, and requesting the disbursements.

The Program Entities initiate disbursement requests via fax, IPAC reports, email, or telephone
calls to the respective trust funds manager. Each telephone request is followed by a faxed
disbursement confirmation citing the applicable legislation and signed by the appropriate
Program Entity representative. The Program Entity may also mail the disbursement confirmation
to TFMB.

TFMB processes disbursement requests received prior to 3:00 pm EST the day they are received
or on the next business day if received after this deadline. The trust fund manager records the
disbursement in InvestOne. When the disbursement confirmation is received by fax/mail, the
trust fund manager matches the confirmations to the telephone request. The trust fund manager
reviews the request to ensure that it is received from the appropriate Program Entity and does not
contain any obvious errors. The trust fund manager also reviews the account balances to ensure
the trust fund has sufficient funds to cover the request.

TFMB uses the automated CARS system, maintained by FMS, to process non-expenditure
transfers.

FMS configured CARS to authorize TFMB to transfer funds from the trust fund accounts to
Program Entities’ accounts but not to transfer funds from Program Entities’ accounts to the trust
fund accounts.

The trust fund manager enters the transfer into the CARS system, in accordance with the Program
Entity’s instruction. CARS reflects a transfer status of “SAVED” for a transfer, until the transfer
is certified. The trust fund manager provides the transfer request documentation to the reviewing
trust fund manager.

The reviewing trust fund manager compares the disbursement request to the Non-Expenditure
Transfers TFMB Trust Fund Accounts Transaction Report from InvestOne. The reviewing trust
fund manager accesses CARS to verify that the transfer is designated to the proper entity, then
certifies the transfer request in CARS. CARS changes the transfer status to “AGENCY
CERTIFIED”. The reviewing trust fund manager documents completion on the DTSP Checklist.

Another reviewing trust fund manager compares the disbursement details and amount from the
Non-Expenditure Transfers TFMB Trust Fund Accounts Transaction Report from InvestOne to a
print screen from CARS. The reviewing trust fund manager also compares all transactions with
                                                54
an “AGENCY CERTIFIED” status on the print screen from CARS to the Non-Expenditure
Transfers TFMB Trust Fund Accounts Transaction Report from the InvestOne accounting system
to ensure the transactions have been properly entered. The reviewing trust fund manager
documents his/her completion of the comparisons on the DTSP Checklist.

After the transfer is certified by TFMB, GWA authorizes CARS to send the disbursement request
to the STAR system using an automated interface. The STAR system transfers the funds from
the trust fund account to the agency account, and CARS changes the status of the transfer request
to “POSTED” in CARS. The trust fund manager accesses the CARS pending transaction file to
monitor the transfer status and take a necessary action to correct errors in rejected transactions
and resubmit the transfers to Fiscal Service.

The trust fund manager provides the disbursement requests (i.e., faxes, SF-1081s (Voucher and
Schedule of Withdrawals and Credits form), IPAC reports, or emails) to the reviewing trust fund
manager. On a daily basis, the reviewing trust fund manager compares disbursements from
InvestOne (i.e., the Cash Forecasting Report) to the disbursement requests to ensure the
disbursement is properly recorded. The reviewing trust fund manager documents approval on the
DTSP.

The Unemployment Trust Fund-State Unemployment Benefit Disbursements

The Program Entities (i.e., State Employment Agencies) are responsible for verifying that the
disbursements are in compliance with legislation, determining the amount of the disbursements,
and requesting the disbursements. Program Entities must submit all disbursement requests using
the Automated Standard Application for Payments (ASAP). Each day, Program Entities must
enter their disbursement requests into ASAP by 6:00 pm EST if requesting a wire transfer and by
11:59 pm EST if requesting an Automated Clearing House payment. The Program Entities may
request a disbursement from their Unemployment Insurance (UI) account, Reed Act account, the
Extended Unemployment Compensation Account (EUCA), the Federal Employment
Compensation Account (FECA), or the Federal Additional Unemployment Compensation
Account (FAUC). A written disbursement confirmation is not required from the Program
Entities. Fiscal Service transfers funds from the trust fund account to the Program Entity's bank
account and sends the trust fund manager the Transaction by Account ID reports.

During the morning of the next business day, ASAP transmits a file to InvestOne that contains all
of the disbursement and transfer requests. The trust fund manager reviews the InvestOne pending
disbursement and transfer requests file. The trust fund manager compares the InvestOne pending
disbursement and transfer requests report to the ASAP transaction reports.

After the trust fund manager verifies and reconciles these reports, the trust fund manager posts the
transaction to the Program Entities’ accounts within InvestOne and provides the reports to the
reviewing trust fund manager. The reviewing trust fund manager reviews and approves the
reports. Any differences are investigated and resolved.

Complementary Program Entity Controls

Program Entities should establish controls to:

•   Verify that only authorized disbursement requests are used for withdrawals from the trust
    funds.

•   Determine and approve the disbursement requests.
                                                 55
•   Provide disbursement requests to TFMB within the required time frame.

•   Ensure that the systems they use to support on-line access to ASAP are approved, tested, and
    properly monitored. (UTF only)

•   Restrict ASAP access to authorized individuals. (UTF only)

•   Verify that disbursement requests are accurately entered into ASAP. (UTF only)

•   Review the monthly trust fund financial reports provided by TFMB to ensure that
    disbursements are posted accurately.

•   Reconcile fund balance with Treasury from their records to Fiscal Service records to ensure
    that they receive the proper trust fund disbursements.

•   Reconcile disbursement records to their bank’s records to ensure that they receive the proper
    trust fund disbursements. (UTF only)

Tests of Operating Effectiveness and Results of Testing

1. Inspected documented SOPs and observed the trust fund managers and the reviewing trust
   fund managers process and record disbursement transactions and determined that the
   transactions were processed in accordance with the procedures.

2. For a selection of disbursement transactions, inspected the Program Entity disbursement
   requests, print screen from the CARS system, the Non-Expenditure Transfers TFMB Trust
   Fund Accounts Transaction Report, IRR and FedInvest confirmation, the InvestOne
   accounting system (e.g., Cash Forecasting Report), and the daily checklist and determined
   that the transactions were documented, reviewed and approved by the reviewing trust fund
   manager, and processed and recorded accurately in the proper period.

3. For a selection of ASAP transaction reports, inspected the reconciliation from the ASAP
   transaction report to the pending transactions report in the InvestOne accounting system and
   determined that the reconciliations were completed, the transactions were processed and
   recorded accurately in the proper period, and the reviewing trust fund manager reviewed and
   approved the reconciliations.

No exceptions noted.




                                               56
Control Objective 14 – Records Maintenance

Controls provide reasonable assurance that the documentation exists to support all transactions
and is filed in reference files, which are readily available.

Description of Controls

Transaction support is maintained in paper or electronic format. The supporting documentation is
organized in separate work folders for each trust fund. The key transaction records and files are
as follows:

    •   Transaction supporting documentation:
        - Receipt notification documents, such as OTA tax estimate/adjustment letters,
            IRS tax refund/credit letters, Program Entity receipt letters/reports, Deposit
            Summary Form (SF-215), and CIR reports.
        - IPAC transaction reports
        - CTA/SF-224 worksheet generated from InvestOne
        - FMS-issued warrants (SF-1017)
        - Investment and Redemption Requests
        - Investment and Redemption Confirmations
        - Disbursement request letters from Program Entities
        - Non-Expenditure Transfer Authorization (SF-1151)
        - ASAP Transaction by Account ID reports (UTF Only)
        - ASAP disbursement and transfer request files and reports (UTF Only)
        - InvestOne pending transactions report (UTF Only)
    •   Cash forecasting report
    •   Daily Transaction Support Package
    •   Monthly financial review checklist
    •   CTA/CARS Account Statement
    •   FIB-generated Monthly Statement of Account
    •   Monthly Financial Reconciliation
    •   Financial Statement Package:
        - Trial Balance reports
        - Balance Sheet
        - Income Statements
        - FACTS II Trial Balance
        - FACTS II Adjusted Trial Balance Report
        - Schedules of Assets and Liabilities, Schedules of Activity, Schedules of
            Misstatements (Attest Schedules) – Attest Funds only
        - InvestOne to Oracle trial balance report reconciliations
        - General ledger account reconciliations
        - Budgetary to proprietary Account Reconciliations
    •   UTF Internet Account Statements (UTF only)
    •   FUA Pending Report (UTF only)
    •   ASAP transaction report (UTF only)
    •   UTF InvestOne accounting system Borrowing Reports (UTF only)
    •   FMS-2108 Year-End Closing Statement




                                               57
Tests of Operating Effectiveness and Results of Testing

1. For a selection of transactions, reconciliations, and reports, inspected supporting
   documentation and determined that documentation was maintained and available.

No exceptions noted.




                                            58
Control Objective 15 – Reporting

Controls provide reasonable assurance that reports provided to the Program Entities are accurate,
prepared on a consistent basis, and fairly present the information they purport to display.

Description of Controls

TFMB has documented policies and procedures for staff to follow for the generation of reports.

All Trust Funds Except the Unemployment Trust Fund

Upon completion of daily processing of receipts, disbursements and investment transactions in
InvestOne, the trust fund manager extracts and uploads the transactions into the Oracle. Each
day, the trust fund manager prepares a summary reconciliation of InvestOne and Oracle account
balances, investigates and resolves any differences, and documents completion on the
reconciliation log.

At the end of the monthly processing cycle, the trust fund managers prepare the financial
statement package for each trust fund. The trust fund manager is responsible for transmission of
the financial statement package, by electronic mail to Fiscal Service Web Support for posting on
the TreasuryDirect website.

The trust fund manager completes the financial reconciliation package, documents approval on
the monthly financial review checklist, and submits the package to the reviewing trust fund
manager for review and approval. The reviewing trust fund manager reviews the package and
documents approval via signature on the financial review checklist. Components of the financial
reconciliation package and procedures performed on each component by the trust fund manager
and reviewing trust fund manager are as follows:

    •   InvestOne to Oracle trial balance report reconciliations – Compare the InvestOne and
        Oracle trial balance ending balances and investigate and resolve any differences.
    •   Fund Balance with Treasury reconciliation – Prepare a reconciliation worksheet
        comparing InvestOne/Oracle trial balances to the CARS Account Statement. Investigate
        and resolve any differences.
    •   Investment reconciliation – Prepare a reconciliation worksheet comparing
        InvestOne/Oracle trial balances to FIB investment activity data. Investigate and resolve
        any differences.
    •   Accounts receivable and payable reconciliations – Prepare reconciliations of accounts
        receivable and payable balances to ensure reasonableness and consistent classification of
        transactions in InvestOne and Oracle general ledger accounts.
    •   Budgetary to proprietary reconciliations - Prepare budgetary to proprietary account
        reconciliations to ensure complete and accurate budgetary account posting for all
        recorded transactions. Investigate and resolve any erroneously posted transactions or out-
        of-balance relationships identified.
    •   Schedules of Assets and Liabilities and Schedules of Activity – Review the schedules for
        format and presentation and compare the schedules to the trial balance reports.
    •   Schedules of misstatements – Prepare a schedule outlining any identified line item
        misstatements for any report within the monthly financial statement package. The
        reviewing trust fund manager reviews the schedule of misstatements and instructs the
        trust fund manager to correct misstatements deemed material by the reviewing trust fund
        manager in the appropriate accounting period.


                                               59
Once the financial reconciliation package is approved, the trust fund manager transmits the
financial statement package (i.e., the trial balance reports, schedules of assets and liabilities, and
schedules of activity) to Fiscal Service Web Support for posting on the TreasuryDirect website.
TFMB issues financial statement packages prior to the completion of the monthly financial
reconciliation package. Should the reconciliation process identify a material misstatement in the
previously issued financial statement package, TFMB corrects the misstatement, revises the
financial statement package, and transmits the revised financial statement package to Fiscal
Service Web Support for posting on the TreasuryDirect website.

Unemployment Trust Fund

At the end of the monthly processing cycle, the trust fund manager provides the Department of
Labor with two files, one contains the activity for the month, and the other contains the account
balances at the end of the month. On a weekly basis, TFMB creates electronic files of the
individual UTF account statements, transaction statements, and Federal activity reports (EUCA
and FECA activity). The text reports are reviewed to ensure that the correct number of files are
included and then posted to the TreasuryDirect’s website.

All Trust Funds

The trust fund activity is also reported in FACTS II. FACTS II is used to consolidate all Federal
financial reporting at the agency level for the purposes of generating the annual consolidated
financial statements for the Federal Government as a whole. The Program Entities are
responsible for entering the information into FACTS II using the reports they receive from
TFMB.

TFMB enters the information into FACTS II by completing the following steps:

    •   The trust fund manager prints and forwards the FACTS II adjusted trial balance
        report to the reviewing trust fund manager who approves the report.
    •   The trust fund manager enters the account balances into FACTS II.
    •   When reporting the FACTS II for the final quarter of the fiscal year, the final
        FACTS II adjusted trial balance report is reviewed by the approving official and
        certified in the FACTS II System.
    •   In addition, the trust fund manager and reviewing trust fund manager compares
        the FMS-2108 Year-End Closing Statement to the September 30th trial balance
        report from the InvestOne accounting system.

At the end of the month, the CTA/SF-224 worksheet is generated utilizing data from InvestOne.
The trust fund manager reconciles the non-investment receipts and disbursements from the
InvestOne CTA/SF-224 report to the CTA/SF-224 worksheet. To document completion of the
CTA/SF-224 worksheet, the trust fund manager initials and dates the CTA/SF-224 worksheet.
The reviewing trust fund manager reviews the reconciliation and documents approval on the
CTA/SF-224 worksheet. Any differences are investigated and resolved.

Complementary Program Entity Controls

Program Entities should establish controls to:

•   Review the monthly trust fund financial reports to ensure that transactions are recorded
    accurately.


                                                 60
•   Review their UTF account statements, transaction statements, and Federal activity reports to
    ensure that transactions are recorded accurately.

•   Verify that transactions are recorded accurately into Federal Agencies’ Centralized Trial
    Balance System (FACTS II).

Tests of Operating Effectiveness and Results of Testing

1. Inspected SOPs and observed the trust fund manager and reviewing trust fund manager
   generate reports and determined that reports were generated in accordance with the
   procedures.

2. For a selection of months, inspected:

          Evidence of the review of the trust fund financial statement package by the reviewing
           trust fund manager and determined that: the InvestOne accounting system and Oracle
           trial balance ending balances agreed, the general ledger account reconciliations were
           prepared, the budgetary to proprietary account reconciliations were prepared, the
           Schedules of Assets and Liabilities and Schedules of Activity agreed to the trial
           balance reports, the schedule of misstatements was prepared, and the reviewing trust
           fund manager reviewed the reports for accuracy.

           Reconciliation of the month-end Fund Balance with Treasury from the Invest One
            accounting system trial balance report to the CARS Account Statement and
            determined that a trust fund manager completed the reconciliations and the reviewing
            trust fund manager reviewed and approved the reconciliations as indicated on the
            monthly financial review checklist.

          Monthly reconciliations from the InvestOne trial balance to the FIB-provided
           Monthly Statement of Account and determined that the reconciliations were
           completed, and reviewed and approved by the reviewing trust fund manager, and that
           any differences were resolved.

3. For a selection of weeks, inspected evidence of the review of the individual UTF account
   statements, transaction statements, and Federal activity reports (EUCA and FECA) by the
   trust fund manager and determined that the trust fund manager reviewed the reports for
   accuracy.

4. For a selection of months, inspected the InvestOne accounting system and FACTS II trial
   balance reports for non-budgetary accounts and determined that the reports were reviewed for
   accuracy and consistency, and any differences were resolved.

5. For a selection of trust funds, inspected evidence of the review of the FMS-2108 reports to
   the trial balance reports from the InvestOne accounting system and determined that the
   reports were reviewed for accuracy and consistency.




                                              61
6. For a selection of months, inspected the reconciliation of the non-investment receipts and
   disbursements from the InvestOne accounting system CTA/SF-224 report to the CTA/SF-224
   worksheet and determined that the reviewing trust fund manager reviewed the reconciliation
   and compared the total transactions from IPAC reports to the total from the CTA/SF-224
   worksheet.

No exceptions noted.




                                             62
Control Objective 16 – Unemployment Trust Fund Title XII of the Social Security Act
Advances Program

Controls provide reasonable assurance that state borrowing transactions are authorized,
processed, and recorded accurately in the proper period.

Description of Controls

TFMB has documented policies and procedures for staff to follow for the processing of the Title
XII Advance transactions.

Pursuant to Title XII of the Social Security Act, certain Program Entities may borrow funds from
the Federal Unemployment Account (FUA) when they have exhausted all available funding in
their account. The following summarizes the related borrowing, repayment, and interest
processes.

Advances to the States / Borrowing Activity

The U.S. Department of Labor (DOL) authorizes and coordinates the amounts that certain states
may borrow. For each three month authorization period, DOL sends an authorization letter to
TFMB indicating the amount that the Program Entity may borrow. During the twelve month
period ended July 31, 2012, twenty-nine were authorized to borrow. This number is subject to
change as more states are authorized for funding. The states withdraw repayable advances from
the FUA through ASAP.

Each day, Program Entities determine the amount they want to borrow by reviewing their account
in ASAP. Program Entities must enter their borrowing requests into ASAP by 6:00 pm EST.

During the morning of the next business day, ASAP transmits a file to InvestOne that contains all
of the borrowing transactions. The trust fund manager compares InvestOne’s FUA Pending
Report that summarizes pending borrowing request the ASAP transaction report.

After the trust fund manager verifies that the requested borrowing is within the authority
established by the DOL and reconciles these reports, the trust fund manager posts the transactions
to the states’ accounts within InvestOne and provides the reports to the reviewing trust fund
manager. The reviewing trust fund manager reviews and approves the reports. Any differences
are investigated and resolved.

Repayment Activity

As discussed in Control Objective 9, the Program Entities deposit unemployment tax receipts into
their UTF accounts. TFMB processes repayments from Program Entities' accounts to the FUA as
directed by the borrowing Program Entities and the DOL. These repayment entries are reviewed
and initialed by the reviewing trust fund manager as part of the daily review of the
Unemployment Trust Fund DTSP.

Interest Terms

If a Program Entity has an outstanding loan balance at the end of the fiscal year, the Program
Entity is liable for payment of interest on the funds it borrowed during the fiscal year. Interest
owed by borrowing states is calculated in a spreadsheet that is populated from InvestOne
borrowing and repayment balances. The trust fund manager reviews the borrowing Program

                                               63
Entity account balances at year-end to ensure that interest is appropriately calculated for any state
still in borrowing status.

Complementary Program Entity Controls

Program Entities should establish controls to:

•   Ensure that the systems they use to support on-line access to the ASAP are approved, tested,
    and properly monitored (UTF only)

•   Restrict ASAP access to authorized individuals (UTF only).

•   Verify that borrowing requests are accurately entered into ASAP (UTF only).

•   Verify that borrowing amounts are not in excess of the amount approved by the U.S.
    Department of Labor.

•   Review the reports provided by TFMB to ensure that borrowing, interest, and repayment
    transactions are recorded accurately.

Tests of Operating Effectiveness and Results of Testing

1. Inspected SOPs and observed the trust fund managers and reviewing trust fund managers
   process and record state borrowing transactions and determined that the transactions were
   processed in accordance with the procedures.

2. For a selection of days, inspected the Borrowing Report, ASAP transaction report, and
   authorized borrowing limits provided by DOL, and determined that the trust fund manager
   verified that the borrowing was within the authority established by DOL.

3. For a selection of days, inspected the reconciliation of the Borrowing Report to the ASAP
   transaction report and determined that the reviewing trust fund manager reviewed and
   approved the reconciliations.

4. For a selection of days, inspected a selection of ASAP transaction reports, Borrowing
   Reports, and the InvestOne accounting system and determined that the borrowings were
   processed and recorded accurately in the proper period.

5. For a selection of states authorized to borrow, inspected InvestOne accounting system reports
   and determined that the Program Entity in borrowing status did not earn any daily income
   when it was allocated.

6. For a selection of days, inspected the sign-off on the DTSP evidencing the trust fund
   manager’s review of accounts to ensure receipts were applied as repayments and determined
   that the reviews were documented.

7. Inspected documentation of the trust fund manager’s review of the borrowing Program Entity
   account balances at year-end and determined that the trust fund manager reviewed the
   accounts for the accurate calculation of interest for a selection of states still in borrowing
   status.

No exceptions noted.
                                                 64
V.   OTHER INFORMATION PROVIDED BY THE
        BUREAU OF THE FISCAL SERVICE




                  65
CONTINGENCY PLANNING

System Back Up

The InvestOne accounting system has a contingency plan managed by the Division of Systems
and Program Support (DSPS). There is a formal Division of Federal Investments (DFI) Business
Continuity Plan (BCP), which is part of a larger BCP for the Office of Public Debt Accounting
(OPDA) and the Fiscal Service Continuity of Operations Plan (COOP). The Trust Funds
Management Branch (TFMB) performs tests on all essential daily InvestOne accounting system
functions. 13

The ISS performs backups of the InvestOne accounting system on a regular schedule. ISS retains
the backup tapes according to a pre-set schedule 14 at an offsite facility. ISS stores one copy in the
production tape library, and the other copy is shipped to an offsite facility. Long-term storage of
tapes is provided through a contract with an offsite storage facility. If a backup tape needs to be
restored, the request will be made from the DSPS. ISS will then load the backup tape.

Continuity of Operations

A fire alarm and sprinkler system that is managed, maintained, and tested by the building
management protects the data center 15. Sprinkler heads are located in the ceiling of each room of
the buildings. This is a wet pipe (always charged with water) system with individual heads that
discharge water. 16

The DFI Business Continuity Plan calls for resumption of operations and critical applications of
essential functions within a pre-set time frame 17. The InvestOne accounting system has been
classified as a critical application.

As part of the DFI BCP, should the facility supporting InvestOne accounting system and
FedInvest become unavailable, designated Trust Funds Management Branch (TFMB) personnel
will relocate to reestablish their daily operations. When applicable, Fiscal Service will revert to
manual procedures until the FIT-MF and InvestOne accounting system are fully recovered.




13
   TFMB performs emergency telework tests on all essential InvestOne functions a minimum of quarterly. The focus of these tests is to
provide assurances that connectivity can be made and these functions will continue with minimum interruption during any emergency
that may occur with or without warning.
14
   ISS uses IBM's Tape Management System to perform backups daily at 6:00 PM ISS retains the first backup for 15 days.
15
   Alarms are active 24 hours a day, 7 days a week, and are tied in to the local fire department over phone lines for spontaneous
notification.
16
   In the event the main building, where the InvestOne accounting system is run, becomes inoperable, mainframe operations would be
relocated to a contingency facility in accordance with the ISS data center recovery plan. This facility employs a warm site strategy for
recovery of mainframe operations. ISS has contracted with the Financial Management Service to provide mainframe equipment for
this site.
17
   4 hour time frame
                                                                  66
